 DEPARTMENT OF JUSTICE
CONFERENCE EXPENDITURES

    U.S. Department of Justice
  Office of the Inspector General
           Audit Division

       Audit Report 07-42
        September 2007
                                             DEPARTMENT OF JUSTICE
                                            CONFERENCE EXPENDITURES

                                                    EXECUTIVE SUMMARY

      The Department of Justice (DOJ) often hosts and participates in
various conferences with other federal, state, and local law
enforcement agencies and organizations. 1 According to financial
reports compiled by the DOJ Justice Management Division (JMD), DOJ
components spent a total of $45.9 million on conferences, including
costs for general support, programming, and travel during fiscal year
(FY) 2006. Although this amount represented an increase of
34 percent compared to the $34.3 million DOJ components reported
they spent on conferences during FY 2000, it is 21 percent less than
the $58 million spent in FY 2004.

                                           DOJ CONFERENCE EXPENDITURES
                                               FROM FYs 2000 TO 2006


                               70

                               60                                           58.0
                                                                   52.7
      Amount ($ in millions)




                               50                      47.0                               45.9
                                                                                   40.2
                               40
                                    34.3     33.8
                               30

                               20

                               10

                               0
                                    2000     2001      2002        2003     2004   2005   2006
                                                              Fiscal Year

   Source: JMD reports on DOJ component conference expenditures

      In the summer of 2005, the U.S. Senate Committee on
Homeland Security and Governmental Affairs, Subcommittee on
Federal Financial Management, Government Information, and
International Security (Subcommittee), initiated an inquiry into
conference spending by federal agencies. As a result of its


             1
          According to 41 C.F.R. § 301-74 (2006), a conference is a “meeting,
retreat, seminar, symposium, or event that involves attendee travel.”

                                                               i
examination, the Subcommittee expressed concern about the time,
money, and human capital spent by federal agencies to sponsor
conferences and the practice of sending federal employees to meetings
held in resort locations.

Audit Approach and Objectives

      Subsequent to the Subcommittee’s examination, the U.S.
Senate Committee on Appropriations, Subcommittee on Commerce,
Justice, Science, and Related Agencies requested that the DOJ Office
of the Inspector General (OIG) perform an audit of the 10 most
expensive DOJ conferences. The OIG agreed to conduct this review
and examined the nine most expensive DOJ conferences held in the
United States between October 2004 and September 2006 and the
single most expensive international conference held during that same
time period. For these conferences, our objectives were to review:
(1) the justifications offered for the event; (2) the site-cost
comparisons on where to hold the event; and (3) certain conference-
related costs – including food and beverages, external event planning,
and audio-visual – for compliance with applicable laws and
regulations. Appendix I describes our scope and methodology related
to the audit objectives.

      As shown in the following table, of the top 10 conferences
reviewed, 6 were sponsored by program offices within the Office of
Justice Programs (OJP), 3 were sponsored by the Federal Bureau of
Investigation (FBI), and 1 was funded by the Office of Community
Oriented Policing Services (COPS).




                                  ii
                        FYs 2005 AND 2006 DOJ CONFERENCES SELECTED FROM JMD RECORDS

                                                                                                                                     Reported
         Formal Conference Name                     DOJ Sponsor           Short Name      Location Held          Dates Held          Cost ($)*
 Coordinating Council on Juvenile Justice and       OJP, Office of
Delinquency Prevention’s National Conference:    Juvenile Justice and   OJJDP National
                                                                                         Washington, D.C.     Jan. 9 - 13, 2006      1,085,568
“Building On Success: Providing Today’s Youth        Delinquency         Conference
  With Opportunities for a Better Tomorrow”      Prevention (OJJDP)
2005 Community Capacity Development Office
                                                                        Weed and Seed
 (CCDO) National Conference: “Strengthening          OJP, CCDO                           Los Angeles, CA     Aug. 22 - 25, 2005        875,000
                                                                         Conference
      Communities One Block at a Time”
                                                   OJP, Bureau of
   2006 Project Safe Neighborhoods (PSN)                                  PSN National
                                                 Justice Assistance                        Denver, CO          May 2 - 5, 2006         864,110
            National Conference                                            Conference
                                                        (BJA)
                                                   OJP, Office for
4th National Symposium on Victims of Federal                              OVC National
                                                  Victims of Crime                         Atlanta, GA       March 7 - 11, 2005        727,300
                  Crime                                                   Symposium
                                                       (OVC)
  2006 CCDO Law Enforcement Conference:
“The Spirit of Service: Enforce, Empower, and        OJP, CCDO          LEC Conference     Phoenix, AZ       Aug. 14 - 17, 2006        610,000
                  Revitalize”
                                                   OJP, National
 7th Annual Technologies for Critical Incident                          NIJ Technology
                                                 Institute of Justice                     San Diego, CA     Oct. 31 - Nov. 2, 2005     575,550
   Preparedness Conference and Exposition                                 Conference
                                                        (NIJ)
                                                                         FBI Polygraph
 FBI Annual Polygraph Examiner’s Conference              FBI                             Minneapolis, MN    June 26 - July 1, 2005     532,000
                                                                          Conference
2006 National Community Policing Conference:
                                                                      COPS National
  “Community Policing: Leading the Way to a           COPS                             Washington, D.C.       July 27 - 29, 2006       525,000
                                                                        Conference
                  Safer Nation”
  2006 FBI Information Technology Exchange                               FBI ITEC
                                                       FBI                              San Antonio, TX       Aug. 7 -10, 2006         500,000
               Conference (ITEC)                                        Conference
 FBI, Office of International Operations (OIO)                         FBI Cambodia       Phnom Penh,
                                                       FBI                                                   March 12 - 17, 2006       167,480
    Asia Unit Regional Training Conference                              Conference         Cambodia
Sources: FY 2005 and 2006 conference expenditure listings compiled by JMD, as combined by the OIG
      * “Reported Costs” may be estimates that do not necessarily include personnel or travel costs.




                                                                        iii
AUDIT RESULTS

      The DOJ does not maintain a single financial system capable of
providing the costs of DOJ conferences. As a result, when asked to
provide conference expenditures to Congress, DOJ components did not
uniformly report these expenditures. Our audit found that some
components reported budgeted, awarded, and estimated conference
costs instead of actual expenses, while others did not uniformly include
travel or personnel costs. 2 Our audit also determined that although
sponsors and planners for the 10 DOJ conferences reviewed by the
OIG provided justifications to hold their events, comparisons of costs
between different sites were not consistently performed or
documented.

      Federal agencies have considerable discretion in deciding how
much to spend on a conference. In our review, we found that three
types of costs – external event planning, food and beverages, and
audio-visual – represented 71 percent, of the $6.2 million spent to
plan and host the 10 conferences. As discussed in this report, some
of the incurred expenses, while allowable, appear to have been
extravagant. Furthermore, we found that OJP may have
inappropriately charged and retained registration fees for one of its
conferences.

Conference Justifications

       Individual DOJ components manage and approve their respective
participation in conferences. According to DOJ officials, the decision to
host an event or send employees to attend a conference is subject to
the availability of funds from individual component appropriations. We
considered an adequate justification for a conference to include, at the
very least, a programmatic reason to hold the event and an approval
from an appropriate sponsoring agency official. Our review of
conference justifications concluded that appropriate reasons and
approvals for these 10 events were developed by their sponsoring
components.




      2
          For FY 2006, the JMD Budget Staff received another conference expenditure
request from the Subcommittee and compiled conference expenditure information in
a similar manner.

                                        iv
Site Comparisons

      The Federal Travel Regulation (FTR) requires that agencies
sponsoring conferences provide appropriate management oversight of
the conference planning process. In this vein, the FTR requires that
conference planners conduct site comparisons to consider lower cost
conference locations and venues. The FTR defines a conference “site”
as both its geographic location, and the specific facility used to hold
the event. According to the FTR, adequate cost comparisons should
compare the availability of lodging rooms at per diem rates, the
convenience of the conference location, availability of meeting space,
equipment and supplies, and the commuting or travel distance of
attendees. The FTR states that conference planners must keep
records showing both the comparisons and the rationale for selecting
the specific place to hold a conference. 3

       Our audit found that not all conference event planners were
certain what type of comparisons – whether by city, by venue, or by
both city and venue – were specifically required by the FTR. For
example, while the FTR requires a minimum of three cost comparisons,
it does not specify whether these comparisons need to include
different cities or just comparable facilities in the same market. As
shown in the following table, conference planners performed
inconsistent site comparisons.

            DOJ CONFERENCES SITE SELECTION METHODS

        Conference Name                City   Venue   Both   Other
    OVC National Symposium              X
    FBI Polygraph Conference                           X
    Weed and Seed Conference                                   X
    NIJ Technology Conference                          X
    OJJDP National Conference                   X
    FBI Cambodia Conference                                    X
    PSN National Conference             X
    COPS National Conference                    X
    FBI ITEC Conference                                X
    LEC National Conference                                    X
   Source: DOJ component and event planning files




      3
          41 C.F.R. § 301-74 (2006).

                                         v
      Only FBI and NIJ conference planners examined and documented
cost comparisons for both alternate cities and venues within the
selected city. To ensure that the government obtains the best
conference location for the best value, we believe that conference
planners should compare multiple sites in multiple cities, unless an
overriding operational reason is documented to hold the conference in
a specific city.

Conference Costs

      According to the FTR, an adequate conference planning process
should minimize costs while maximizing the use of government-owned
or publicly provided facilities. The FTR provides that to minimize costs
to the federal government, the planning agency should consider all
direct and indirect costs incurred to sponsor the conference. These
include: (1) attendee-related costs, such as travel, per diem, lodging,
and time required to travel to and attend the conference; (2) rentals
for audio-visual and other equipment; (3) computer and telephone
access fees; (4) printing; and (5) light refreshments.

      Because DOJ does not have a single financial reporting system
that can consistently identify and report conference-related costs
incurred by different components, we worked with the sponsoring DOJ
components and external event planners to develop a consistent
breakdown of expenses for all 10 conferences. As shown in the
following table, planning and hosting the 10 conferences totaled nearly
$6.2 million, while DOJ collectively spent an additional $1.9 million to
send employees to these events.




                                   vi
                                                CONFERENCE EXPENSES BY COST CATEGORY

                       OJJDP     Weed and     PSN        OVC                  NIJ        FBI       COPS                   FBI
                      National     Seed     National   National    LEC     Technology Polygraph   National   FBI ITEC   Cambodia
                     Conference Conference Conference Symposium Conference Conference Conference Conference Conference Conference
  Cost Category         ($)         ($)       ($)        ($)       ($)         ($)       ($)        ($)        ($)        ($)                           TOTALS
No. of Days              5            4            4             5            4            3           6            3           4            6
No. of Registrants     1,831        1,542        1,330          787         1,329        1,315         98         1,437        306           46
                                                               Planning & Hosting (P&H) Costs
1. External Event
                        605,619      197,565      196,798       310,394      145,767      409,535           n/a    213,174           n/a          n/a   2,078,852
   Planning
2. Speakers              35,742       82,229       31,561        55,356       96,759       95,473       3,682       94,486            0       3,947       499,235
3. Food and
                        291,940      394,008      108,866        98,350      181,002      175,101       7,468      274,546       8,334        4,219     1,543,834
   Beverages
4. Audio-Visual          62,930      147,779      143,469       148,738      122,577       38,976       1,496       89,185       7,747              0     762,897
5. Print Media           39,040       35,131        9,463        35,077       18,223       14,860           0       24,875           0              0     176,669
6. Subcontractors       313,914       27,623       69,052       103,744       38,972       82,531            0      69,683            0           924     706,443
7. Signs and
                          2,407       47,215       15,322         3,856              0           0           0       6,488            0             0      75,288
   Door Items
8. Miscellaneous          52,367      10,022      221,473        11,548            0        4,974           0       50,668           0          231       351,283
   Total P&H Costs     1,403,959     941,572      796,004       767,063      603,300      821,450      12,646      823,105      16,081        9,321     6,194,501
                                                                      Multi-Component Costs
9. DOJ Employee
                               0     105,105      638,371       318,631      124,411       17,576     117,251        1,754     364,966      172,327     1,860,392
   Travel
            Total
 Multi-Component               0     105,105      638,371       318,631      124,411       17,576     117,251        1,754     364,966      172,327     1,860,392
            Costs
        SUBTOTAL      1,403,959    1,046,677    1,434,375     1,085,694      727,711      839,026     129,897      824,859     381,047      181,648     8,054,893
Other Revenue          (505,657)            0            0              0            0   (561,938)           0            0           0             0 (1,067,595)
  FINAL DOJ COST       $898,302 $1,046,677 $1,434,375        $1,085,694     $727,711     $277,088    $129,897     $824,859    $381,047     $181,648 $6,987,298
        Source: OIG analysis of financial summary reports, drawdowns, and supporting invoices received from sponsoring components
                and external event planning companies and DOJ travel vouchers from DOJ attendees.




                                                                               vii
      Neither the sponsoring components’ cost nor the total DOJ cost
for each event matches the cost information reported to the
Subcommittee for DOJ conferences held in FYs 2005 and 2006. We
discussed the difference between the reported and actual DOJ costs
with both JMD and sponsoring component officials. Despite specific
instructions, components did not uniformly report their conference
costs to JMD. Regarding the 10 conferences we selected for review,
the discrepancies between the OIG-calculated conference costs and
the JMD-reported costs stem primarily from components:
(1) reporting budgeted, awarded, or estimated costs instead of actual
expenses; and (2) inconsistently including travel and personnel costs
in their figures.

       We reviewed in detail the three largest cost categories – external
event planning, food and beverages, and audio-visual for the 10
conferences. As shown by the following table, these three cost
categories represent over 70 percent of the total planning and hosting
costs.

      PLANNING AND HOSTING COST CATEGORY EXPENSES

                    Total Costs
                     Allocated
  Cost Category         ($)     %
 1. External Event
                      2,078,852 34
      Planning
    2. Speakers        499,235    8
    3. Food and
                      1,543,834 25
     Beverages
  4. Audio-Visual      762,897   12
  5. Printed Media     176,669    3
 6. Subcontractors     706,443   11
    7. Signs and
                        75,288    1
     Door Items
  8. Miscellaneous     351,283    6
      TOTALS        $6,194,501 100
Source: OIG analysis of component and external event planning records




                                       viii
Event Planning

      Although conference event planners play an important role in
determining how much an event will cost, the FTR does not specify
how a sponsoring agency should select a conference planner. Our
audit found that the FBI internally planned its three events while OJP
and COPS hired private contractors to plan their conferences. As
shown in the following table, OJP procured external conference
planners by either awarding a contract through its Acquisition
Management Division (AMD) or through a cooperative agreement
awarded by the individual OJP program office. 4

                 PROCUREMENT VEHICLES USED TO HIRE
                CONFERENCE EXTERNAL EVENT PLANNERS

                                                              Cooperative
                Conference Name                Contract       Agreement
              Weed and Seed Conference            X
              NIJ Technology Conference                              X
                PSN National Conference             X
               COPS National Conference                              X
                 LEC National Conference            X
              OJJDP National Conference 5           X                X
                OVC National Symposium              X
           Source: OIG analysis of event planning documents

       To analyze how the event planners were hired and the costs they
charged, we reviewed three large, national scope conferences
identified in the following table. 6




       4
          According to the OJP Financial Guide, a cooperative agreement is a type of
award used when OJP anticipates substantial involvement with the recipient during
performance of the contemplated activity. Cooperative agreements can be awarded
to states, units of local government, or private organizations.
       5
           The OJJDP National Conference initially used a contract to hire an external
event planner to provide logistical support. At some point while planning the event,
OJP issued a cooperative agreement with this event planner to continue planning
activities.
       6
         Appendix I outlines the methodology used to choose conferences to review
their event planning costs.

                                          ix
              OJP EXTERNAL EVENT PLANNING COSTS

                                     External                         Percentage
                                      Event                           of Planning
                                     Planning         Number of       and Hosting
         Conference                  Cost ($)         Registrants         Cost
OJJDP National Conference               605,619          1,831               43
NIJ Technology Conference               409,535          1,315               50
     CCDO LEC Conference                145,767          1,329               24
                 TOTALS             $1,160,921           4,475
Source: OIG analysis of external event planner financial records

       All three reviewed event planners provided logistical and
administrative support to help OJP program offices prepare for their
respective conferences. These services included performing location
visits and site selection analysis, establishing contracts with venues or
hotels for meeting space and attendee rooms at per diem rates, and
preparing budgets and reports for review by OJP officials.

      Each of the event planners used by OJP examined in this review
employed a different mechanism or rate to capture indirect costs,
thereby causing event planning expenses to vary considerably. For
example, OJJDP and NIJ event planners applied approved overhead
rates of about 82 and 131 percent, respectively, on all direct labor
charges. In addition, event planners also applied a general and
administrative charge on all direct conference costs. The following
table shows the impact of the NIJ event planner’s 131-percent
overhead rate, as well as a 15-percent general and administrative
rate, on conference planning costs.

                     NIJ TECHNOLOGY CONFERENCE
                        EVENT PLANNING COSTS

                      Type of Cost                        Amount ($)
          Direct Labor (3,525 hours)                         126,077
          Overhead (131% of direct labor cost)               164,669
          NIJ Event Planner Travel                            14,074
          General and Administrative
                                                                   104,715
          (15% of all conference costs)
                                        TOTAL                 $409,535
         Source: OIG analysis of NIJ event planner records




                                          x
      In contrast to the OJJDP and NIJ conference event planners, the
LEC event planner charged a flat hourly labor rate that included all
direct and indirect labor costs. This event planner then charged a
3 percent handling fee to all non-labor conference planning costs as
shown in the following table.

             SUMMARY OF LEC EVENT PLANNER COSTS

                                                          Amount
                      Type of Cost                         ($)
         Labor Charges (1,464 hours)                       121,691
         Travel and other related costs                      4,355
         Fixed Fee (3% handling charge
                                                             13,748
         applied to costs totaling $458,246)
         NIH Fee (1% of all costs totaling
                                                                 5,973
         $597,327)
                                         TOTAL           $145,767
         Source: Event planner invoices and accounting records

       Event planners told us they provided different levels of logistical
support for the various OJP conferences, which could impact the
number of hours necessary to plan an event. However, the number of
hours billed by event planners does not speak to the level of indirect
rates charged to plan a conference. As a general rule, indirect rates
are determined by a company’s overhead and equipment costs, facility
fees, debt payments, and administrative expenses. This means that
companies performing technical or scientific services may charge high
indirect cost rates.

      No single entity within OJP monitors conference costs to ensure
they are appropriate or that the event planners hired actually offer the
best value for the fees they charged. As a sponsor of many large,
national-scope conferences each year, we believe that OJP should
evaluate how it solicits, hires, and assesses event planners. As
exhibited by the wide-range of hours and indirect rates charged by
these three event planners, we believe that oversight is necessary to
ensure that event planning costs comply with FTR and DOJ conference
planning guidelines.




                                      xi
Food and Beverages

      The Government Employees Training Act (Training Act) states
that a federal agency may serve food and beverages at sponsored
conferences concerned with the functions or activities for which they
receive funding. 7 Under the Training Act, the Government
Accountability Office has identified three circumstances where federal
agencies may provide food and beverages to conference attendees.

   •   The provided meals and refreshments are incidental to the
       conference;

   •   Attendance at functions where food and refreshments are
       provided is necessary to ensure full participation in essential
       discussions, lectures, or speeches concerning the purpose of the
       conference; and

   •   The meals and refreshments are part of the formal conference
       that includes substantial functions occurring separately from
       when the food is served.

      To review food and beverage costs, we selected the four
conferences identified in the following table. 8

                 REVIEWED FOOD AND BEVERAGE COSTS

                                                                     Percentage
                                     Food and                        of Planning
                                     Beverage          Number of     and Hosting
           Conference                Cost ($)          Registrants       Cost
Weed and Seed       Conference           394,008         1,542             42
 COPS National      Conference           274,546         1,437             33
 FBI Polygraph      Conference             7,468           98              59
 FBI Cambodia       Conference             4,219           46              45
                       TOTAL           $680,241          3,123
Source: OIG analysis of conference financial records




       7
           5 U.S.C. § 4110 (2006).
       8
          Appendix I outlines the methodology used to choose conferences to review
their food and beverage costs.

                                         xii
      Of the four selected conferences, the Weed and Seed Conference
and the COPS National Conference were attended primarily by non-
DOJ employees, while FBI employees constituted the majority of
attendees at both of its conferences. To review the amount and cost
of food and beverages served at each conference, we identified the list
price of the items and calculated the actual price charged by the
venue, which included applicable taxes and service charges paid for
each menu item. We also examined the purpose of the functions
where food and beverages were provided, and whether food and
beverage costs were in compliance with applicable rules and
regulations.

      Our audit found that the food and beverages provided to
attendees at the Weed and Seed and COPS conferences were furnished
by large hotels that applied significant service charges. For example,
as part of the Weed and Seed Conference, OJP spent $394,008 on
continental breakfasts, lunches, snack items, beverages, and a
“themed networking reception.” As shown in the following table, the
$394,008 cost included the food and beverage menu price (list price),
a 20 percent service charge applied to the list price, and an 8.25
percent sales tax applied to the subtotaled list price and service
charge. 9




      9
          The 8.25 percent sales tax for food and beverages amounted to $30,028.
Although the federal government is exempt from local taxes on direct payments, the
external event planning contractor for the Weed and Seed Conference paid the hotel
directly and was therefore assessed the sales tax on all goods, rents, and services
provided.

                                        xiii
            COSTS OF FOOD AND BEVERAGES PROVIDED
              AT THE WEED AND SEED CONFERENCE
                      August 22 to 25, 2005
                                             List Price Paid Price
                                             Per Unit    Per Unit
                                                 or         or        Adjusted
                                Total         Serving    Serving*    Total Cost*
      Food/Beverage            Number           ($)        ($)          ($)
Breakfasts
       Continental Breakfasts       4,600        16.75      21.76        100,096
Lunches
            Deli Lunch Buffets          45       29.00      37.67           1,695
              Salmon Lunches        1,476        38.50      50.01          73,815
             Chicken Lunches        1,316        29.75      38.65          50,863
Working Groups Lunch Buffets           120       41.00      53.26           6,391
  CCDO Staff Meeting Lunches            30       34.00      44.16           1,325
Snacks
        Cookies and Brownies        3,804         2.67       3.47          13,199
                  Granola Bars          40        3.00       3.89             156
                 Bags of Chips      2,280         2.50       3.25           7,410
                        Yogurt           6        3.75       4.87              29
         1 Large Fruit Display 50 Servings        3.90       5.06             253
         1 Small Fruit Display 15 Servings        3.33       4.33              65
   CCDO Staff Meeting Snacks            30       19.00      24.68             740
Beverages
                       Cups of
                                   15,520         2.15       2.79          43,301
            Columbian Coffee
              Bottles of Water      4,304         3.75       4.87          20,960
                 Cans of Soda       2,872         3.50       4.55          13,067
      CCDO Staff Meeting Soft
                                        27        3.25       4.22             114
                         Drinks
Reception
           “Stars and Stripes”
                                    1,000        41.00      53.26          53,260
        Networking Reception
               3 Cheese Trays 300 Servings        4.40       5.72           1,716
            3 Vegetable Trays 300 Servings        3.65       4.74           1,422
        6 California Roll Trays 300 Pieces        7.30       9.48           2,844
    6 Roasted Vegetable Wrap
                                300 Pieces        3.30       4.29           1,287
                          Trays
                                                           TOTAL        $394,008*
Source:   OIG analysis of component and external party planner documents
     *    Certain costs and amounts are rounded to equal the total charge

      Applying the total $394,008 cost to each of the 1,542 conference
registrants, OJP spent an average of $256 per person, or $64 per day,
on food and beverages. The average conference attendee received
four breakfasts, two lunches, one reception, and an assortment of light
refreshments over the four days of the conference.


                                      xiv
      OJP also provided its employees with lunch during a staff
meeting held on the last day of the Weed and Seed Conference.
Unlike the rest of the conference, which was attended primarily by
representatives of Weed and Seed program grantees, this staff
meeting was composed of only OJP employees traveling on a per diem
rate. OJP provided, at no cost to 30 of its employees, a sandwich
buffet lunch that cost $44 per person and a themed “at-the-movies”
snack, consisting of candy, popcorn, and soft drinks, for $25 per
person.

      The Weed and Seed Conference also featured a $60,000
networking reception for 1,000 attendees after the first full day of the
conference. The following menu details the items served at the Weed
and Seed Conference’s networking reception.

         OJP WEED AND SEED NETWORKING RECEPTION




    Source: Venue catering menu

      Similarly, the COPS National Conference provided attendees a
$60,000 networking reception with carved beef and turkey and penne
pasta. Besides the reception, the COPS conference also provided
attendees with two themed breaks that cost a total of $42,000.


                                   xv
              COPS NATIONAL CONFERENCE THEMED BREAKS


        Thursday, July 27, 2006                       Friday, July 28, 2006
            3:15 to 3:45 PM                              3:15 to 3:30 PM




 Note: “Attendants Required” means hotel
 staff (attendants) were required to serve
            themed break items.

Source: Venue event order form

        The sheer volume of food and beverages resulted in OJP and
  COPS spending, respectively, an average of $64 and $83 on food and
  beverages each day for each person. The meals and incidental
  expenses (M&IE) rate for government employees attending the Weed
  and Seed Conference was $51 per day, while the rate at the COPS
  National Conference was $64. 10 We examined planning documents for
  these conferences and found no written explanations justifying the
  need to offer conference attendees such costly meals and networking
  receptions.

        Considering the provision of full meals to DOJ employees at 8 of
  the 10 conferences we examined in this audit, we reviewed a sample
  of 253 vouchers to determine if attendees deducted conference-
  provided meals from their travel vouchers. According to the FTR,
  federal travelers should adjust their per diem reimbursement requests
  and deduct for meals furnished by the government. To ensure that
  federal employees deduct the proper amount, GSA has calculated

         10
              Federal employees may receive reimbursement for meals incurred during
  official travel according to a locality’s M&IE per diem rate established by GSA.

                                             xvi
predetermined figures that a traveler should deduct depending on the
meal that was provided by the government.

     When federal attendees do not deduct meals provided at
government expense, the government effectively pays for the
employee’s meal twice – once at the conference, and again when the
employee receives reimbursement after submitting their travel
voucher. Of the 253 tested vouchers, we found that only 62 properly
deducted all meals provided at the conferences, 41 deducted some of
the meals, and 150 vouchers did not deduct any of the provided
meals.

                   OIG VOUCHER TESTING RESULTS




              Source: OIG analysis

Audio-Visual Equipment and Services

      Since audio-visual equipment and services comprised the third
largest category of conference expenditures, we selected three
conferences and reviewed their audio-visual costs. 11




      11
          Appendix I outlines the methodology used to choose conferences to review
their associated audio-visual costs.

                                       xvii
                    REVIEWED AUDIO-VISUAL COSTS

                                                                     Percentage
                                                                     of Planning
                                  Audio-Visual         Number of     and Hosting
        Conference                  Cost ($)           Registrants       Cost
 PSN National Conference                143,469          1,330           18
 OVC National Symposium                 148,738           787            19
     FBI ITEC Conference                  7,747           306            48
                TOTALS                 299,954           2,423
Source: OIG analysis of conference financial records

      Similar to rules governing food and beverage costs, federal
agencies have considerable discretion in how much they choose to
spend on audio and visual equipment and services at government-
sponsored conferences. We reviewed the audio-visual costs and
compared costs of rentals with the services provided at the three
selected conferences. Our review found no unallowable audio-visual
equipment costs.

      However, OJP and FBI conference sponsors achieved cost
savings by bargaining with audio-visual subcontracting firms for
services and equipment rentals. For example, the OVC subcontractor
provided the National Symposium a discount rate on equipment
rentals during the last two days of its conference. The FBI ITEC
Conference received nearly a 30-percent discount from its total audio-
visual bill by booking services more than 30 days in advance.

Registration Fees

      OJP event planners for the OJJDP National Conference and the
NIJ Technology Conference solicited and retained registration fees
from conference attendees and vendors. According to 31 U.S.C. §
3302(b), an official or agent of the government receiving funds “from
any source shall deposit the money in the Treasury as soon as
practicable without any deduction for any charge or claim.” The
rationale underlying this rule, also known as the miscellaneous receipts
statute, is that in order to maintain Congress’s “power of the purse,”
an agency should not augment its appropriations from sources outside
the government without statutory authority.

       In March 2005, the GAO, applying § 3302(b), held that neither
federal agencies nor contractors acting on their behalf may charge and
retain conference fees without specific statutory authority to do so. In
light of this ruling, we considered the decision to charge conference
                                        xviii
fees in connection with the OJJDP and NIJ conferences. We concluded
that, in the absence of specific statutory authority, outside entities
retained by OJP should not charge conference fees in those cases
where they have been retained primarily to provide conference
planning services.

      As discussed previously, OJJDP originally entered into a contract
with an event planner to provide conference planning services for the
OJJDP National conference. Thereafter, OJP and the event planner
entered into a cooperative agreement pursuant to which these
planning activities would continue. The Federal Grant and Cooperative
Agreements Act of 1977, 31 U.S.C. § 6305, directs executive agencies
to use cooperative agreements to reflect the relationship between the
federal government and another entity when:

       (1)    the principal purpose of the relationship is to transfer a
              thing of value to the . . . recipient to carry out a public
              purpose . . . authorized by law . . . instead of acquiring
              property or services for the direct benefit or use of the . . .
              government; and

       (2)    substantial involvement is expected between the executive
              agency and the . . . recipient when carrying out the
              activity contemplated in the agreement.

By contrast, executive agencies are directed to use contracts when
“the principal purpose is to acquire . . . property or services for the
direct benefit or use of the . . . government.” Id. at § 6303. Pursuant
to DOJ regulations, such as 28 C.F.R. § 70.24, non-profit organizations
that enter into cooperative agreements with the Department may
retain program income earned during the project period. 12

      We inquired as to why OJJDP entered into a cooperative
agreement with the conference planner when a contract for such
services was already in place. According to conference planning
documents, OJP officials believed that the event planner would be
prohibited from charging conference fees if they proceeded under the



       12
          This provision is part of the Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and other
Non-Profit Organizations. It does not apply to agreements with for-profit
corporations such as the event planner for the OJJDP conference.


                                        xix
contract. 13 By opting for a cooperative agreement instead, OJP
believed that it would be permissible for the event planner to charge
and retain registration fees as program income.

       We believe there are two problems with OJP’s approach. First, it
does not appear that a cooperative agreement was the proper vehicle
for OJJDP to use in this case. As is evident from the choice of a
contract as the original procurement vehicle, the primary purpose of
the agreement between OJJDP and the conference planner was for
OJJDP to acquire conference planning services. As discussed above, a
contract is the proper vehicle when federal agencies are securing such
services for their use. Second, even if a cooperative agreement would
have been appropriate in these circumstances, the regulations relating
to program income do not apply to agreements with for-profit entities
like the event planner involved in the OJJDP conference. Accordingly,
we believe that absent specific statutory authority to charge
conference fees, it was inconsistent with the miscellaneous receipts
statute for the OJJDP conference planner to charge and retain
registration fees.

      In September 2005, NIJ entered into a cooperative agreement
with a non-profit entity related to the technology conference. As part
of the agreement, the non-profit was to provide planning and other
services for the technology conference. The agreement provided that
the event planner would collect anticipated program income generated
by charging fees to conference exhibitors and attendees.

      In light of the March 2005 GAO decision concerning conference
registration fees, we asked OJP officials whether NIJ had statutory
authority to collect fees in connection with the technology conference.
According to OJP, such authority was not required. OJP reasoned that
because the event planner in this case provided more than just pure
planning services, a cooperative agreement was the appropriate
funding vehicle and the fees collected were allowable program income
under that agreement. Specifically, OJP noted that in addition to
purely logistical support, the NIJ conference planner also performed
such programmatic tasks as identifying possible participants and
coordinating among the sponsoring government agencies. 14


      13
         This document, dated August 9, 2005, suggests that OJP was aware of the
GAO decision and its potential implications for the OJJDP conference.
      14
          For purposes of this review, programmatic support means a service
designed to achieve the award or agreement’s mission or objectives.

                                       xx
       We believe that whether it was appropriate to charge registration
fees in connection with the NIJ conference is a close question. We
recognize that: (1) cooperative agreements may be appropriate
funding vehicles in cases where OJP is transferring funds to a non-
profit entity primarily to permit that entity to carry out a programmatic
function of OJP; and (2) the governing regulations permit the retention
of program income when such agreements are utilized. However, we
believe that OJP must ensure that cooperative agreements are not
utilized inappropriately as a means of avoiding the strictures of the
miscellaneous receipts statute. Accordingly, we recommend that OJP
develop and implement clear guidance outlining the specific
circumstances under which event planners retained to assist with OJP
conferences may charge and retain conference fees.

Conclusions and Recommendations

      DOJ components sponsoring conferences have a responsibility
to: (1) justify sponsoring a conference; (2) conduct cost comparisons
to consider lower cost conference locations and venues; and
(3) reduce costs incurred by hosting and traveling to these events.
Our audit determined that DOJ sponsors adequately justified their
conferences, but inconsistently performed and documented
comparisons of costs between different potential sites. In addition,
our analysis of event planning costs found that such expenses varied
widely. We also found that using appropriated funds to pay for
expensive meals and snacks at certain DOJ conferences, while
allowable, appear to have been extravagant.

     As a result of our review, we provide 14 recommendations to
DOJ and its components, including the following:

   •   Implement specific guidance regarding what comparisons of
       costs between different sites conference planners should perform
       to ensure the best location for the best value.

   •   Develop and implement conference food and beverages policies.

   •   Instruct DOJ component Chief Financial Officers to develop and
       implement procedures that ensure employees deduct the
       appropriate amount from the M&IE rate for government-provided
       meals from their submitted travel vouchers.




                                   xxi
•   Evaluate methods to solicit, hire, and assess external event
    planners to ensure that conference planning costs comply with
    FTR and DOJ conference planning guidelines.

•   Develop and implement policies and procedures to ensure
    compliance with the miscellaneous receipts statute




                               xxii
              DEPARTMENT OF JUSTICE
             CONFERENCE EXPENDITURES

                  TABLE OF CONTENTS
                                                                          Page

CHAPTER 1:   INTRODUCTION .............................................. 1
             Background ....................................................... 1
             Audit Approach and Objectives ............................. 4

CHAPTER 2:   CONFERENCE COSTS........................................ 5
             DOJ Conference Lists Compiled by JMD ................. 5
             Conference Universe and Selection ....................... 7
             Conference Cost Categories ................................. 9
             Conclusion ...................................................... 13
             Recommendations ............................................ 14

CHAPTER 3:   JUSTIFICATIONS ........................................... 15
             Justifications for Internally Planned FBI Events ..... 15
             OJP and COPS Justifications for
                Contracts and Awards ................................... 16

CHAPTER 4:   SITE COMPARISONS ...................................... 18
             Analysis of Conference Site Comparisons ............. 19
             Conclusion ...................................................... 21
             Recommendations ............................................ 22

CHAPTER 5:   EXTERNAL EVENT PLANNING......................... 23
             Procurement and Costs ..................................... 23
             Conclusion ...................................................... 36
             Recommendations ............................................ 38

CHAPTER 6:   FOOD AND BEVERAGES.................................. 39
             Itemized Food and Beverage Costs ..................... 40
             Per Diem Meal Deductions ................................. 60
             Conclusion ...................................................... 63
             Recommendations ............................................ 64

CHAPTER 7:   AUDIO-VISUAL EQUIPMENT AND
                SERVICES .................................................. 66
             Equipment Costs .............................................. 67
             Labor and Other Costs ...................................... 72
             Conclusion ...................................................... 74
                                                                                Page

CHAPTER 8:       REGISTRATION FEES ..................................... 75
                 Analysis .......................................................... 75
                 Conclusion ...................................................... 79
                 Recommendation ............................................. 79

STATEMENT ON INTERNAL CONTROLS.................................... 80

APPENDIX I:      OBJECTIVES, SCOPE, AND METHODOLOGY .... 81

APPENDIX II:     SCHEDULE OF DOLLAR-RELATED FINDINGS .. 87

APPENDIX III: CONFERENCE FACTS AND SUMMARIES .......... 88

APPENDIX IV:     ACRONYMS .................................................... 94

APPENDIX V: CONSOLIDATED DOJ RESPONSE TO AUDIT
             REPORT RECOMMENDATIONS........................ 95

APPENDIX VI: OIG SUMMARY AND ANALYSIS OF ACTIONS
             NECESSARY TO CLOSE REPORT...................... 99
Chapter 1: INTRODUCTION

       In the summer of 2005, the U.S. Senate Committee on
Homeland Security and Governmental Affairs, Subcommittee on
Federal Financial Management, Government Information, and
International Security (Subcommittee), launched a government-wide
inquiry into conference spending. As part of this examination, the
Subcommittee asked federal agencies to report on their conference
sponsorship and participation from fiscal years (FY) 2000 to
2005. The inquiry found that since FY 2000, federal agencies spent at
least $1.4 billion underwriting or sending employees to conferences.
The inquiry also revealed that federal agencies did not consistently or
transparently track funds spent on conferences and related travel. In
light of these findings, the Subcommittee expressed concern about the
time, money, and human capital spent by federal agencies to sponsor
conferences.

Background

       According to financial reports compiled by the Justice
Management Division (JMD), during FY 2006 Department of Justice
(DOJ) components spent a total of $45.9 million on conference-related
activities, which included costs for general support, programming, and
travel. Although this amount represented an increase of 34 percent
compared to the $34.3 million DOJ components reported they spent
during FY 2000, it is 21 percent less than the $58 million spent in FY
2004, as shown in Table 1-1.
  Table 1-1
                                          DOJ CONFERENCE EXPENDITURES
                                               FROM FY 2000 TO 2006


                              70

                              60                                          58.0
                                                                 52.7
     Amount ($ in millions)




                              50                     47.0                                 45.9
                                                                                 40.2
                              40
                                   34.3     33.8
                              30

                              20

                              10

                              0
                                   2000     2001     2002        2003     2004   2005     2006
                                                            Fiscal Year

  Source: JMD reports on DOJ component conference expenditures

      Different federal statutes and regulations authorize agencies to
sponsor conferences and meetings, the most relevant of which we
discuss below.

Government Employees Training Act (Training Act)

      Enacted in 1958, the Training Act gives federal agencies the
general authority to train employees. Among its many provisions, this
law authorized the use of conferences to meet identified training
needs. 15 The Training Act authorizes agencies to pay expenses
incurred by employees attending meetings or conferences that are
concerned with agency mission-related functions or activities. The
Training Act also stipulates that a meeting or conference may be
mission-related if it will contribute to the improved conduct,
supervision, or management of mission-related functions.

Federal Travel Regulation

      The General Services Administration (GSA) issued the Federal
Travel Regulation (FTR) to implement statutory requirements and


            15
                               Pub. L. No. 85-507 (1958) and 5 U.S.C. §§ 4100 to 4110 (2006).


                                                             2
federal travel policies for government employees and others attending
conferences at public expense. The FTR, which defines a conference
as a “meeting, retreat, seminar, symposium, or event that involves
attendee travel,” holds conference-sponsoring agencies responsible for
providing appropriate management oversight of the conference
planning process. 16

      According to the FTR, an adequate planning process should
minimize conference planning costs while maximizing the use of
government-owned or publicly provided facilities. To minimize costs to
the federal government, the planning agency should consider all costs,
both direct and indirect, incurred by sponsoring the conference. These
include: (1) attendee-related costs, such as travel per diem, lodging,
and time required to travel to and attend the conference;
(2) rentals for audio-visual and other equipment; (3) computer and
telephone access fees; (4) printing; and (5) light refreshments.
Additionally, the FTR requires that federal agencies develop and
establish internal policies that ensure these conference planning
standards are met.

DOJ Travel and Conference Policies

       Individual DOJ components manage and approve their respective
participation in conferences. The decision to host an event or send
employees to attend a conference is subject to the availability of funds
from individual component appropriations. However, JMD has played
an increasingly important role in establishing uniform travel rules and
conference policies that apply to all DOJ components. In
July 2001, JMD issued a Temporary Duty Travel Guide (Travel Guide)
for DOJ employees describing the DOJ’s travel reimbursement process.
The Travel Guide also includes checklists to be used by officials who
authorize travel, approve vouchers, and certify travel payments and
examples of and instructions to forms required to authorize and pay
travel expenses.

        In addition, the Violence Against Women and DOJ
Reauthorization Act of 2005 requires that each “predominantly
internal” DOJ conference receive the approval of the Assistant Attorney
General for Administration if it is to be held in a non-governmental
facility. 17 In January 2006, JMD issued guidance to DOJ components

      16
           41 C.F.R. § 301-74 (2006).
      17
           Pub. L. No. 109-162 (2005) § 1173.


                                        3
stating that a predominantly internal conference occurs when more
than 50 percent of the attendees are DOJ employees. The approval
requirement applies to all such events, regardless of anticipated size
or expense.

      In an effort to streamline the predominantly-internal conference
review process, JMD established an internal Web site where DOJ
conference planners and training officials can electronically submit
pertinent information about each event for JMD review, follow-up, and
approval. However, since the policy applies only to predominantly-
internal conferences, conferences for non-DOJ employees, such as
panel bankruptcy trustees, state and local law enforcement officials, or
grant recipients, need not obtain JMD review or approval, even if they
are large, national-scope events.

Audit Approach and Objectives

      The U.S. Senate Committee on Appropriations, Subcommittee on
Commerce, Justice, Science, and Related Agencies requested that the
DOJ Office of the Inspector General (OIG) perform an audit of the 10
most expensive DOJ conferences. The OIG agreed to conduct this
review and examined the nine most expensive DOJ conferences held in
the United States between October 2004 and September 2006 and the
single most expensive international conference held during that time
period, as identified by JMD records. For these conferences, our
objectives were to review: (1) the justifications offered for the event;
(2) the site-cost comparisons on where to hold the event; and
(3) certain conference-related costs – including food and beverages,
external event planning, and audio-visual – for compliance with
applicable laws and regulations. 18

      This audit report contains 8 chapters. Chapter 2 explains how
we identified and selected conferences to review and assessed their
costs. Chapters 3 and 4 describe the conferences’ justifications and
how sponsoring components documented required city and venue
comparisons. We review and compare the methods used to hire event
planners and their related costs in Chapter 5, while Chapters 6 and 7
describe the costs associated with providing food and beverages and
audio-visual equipment and other related services. Chapter 8
discusses whether event planners appropriately charged and retained
registration fees to defray conference costs.

      18
         Appendix I describes our Objectives, Scope, and Methodology, while
Appendix IV lists acronyms used throughout the report.

                                        4
Chapter 2: CONFERENCE COSTS

      At the outset of our review, we examined information prepared
by the JMD Budget Staff in response to the following request from the
Subcommittee for conference expenditure information.

  Table 2-1
                   SUBCOMMITTEE REQUEST
              FOR DOJ CONFERENCE INFORMATION


    1. The total amount spent by DOJ and its agencies and offices on
       conferences – including general support, programming, staff
       salaries, travel and other associated costs – in each of the
       previous five FYs, beginning with the most recent year for which
       such data is available;

    2. A full listing of each conference that received support from DOJ
       and its agencies and offices during the FY 2005, including the
       location of the conference, the number of DOJ employees who
       attended, and the primary sponsor of the conference; and

    3. An estimate of the amount DOJ expects to spend on conferences
       and related expenses in FY 2006.

  Source: Subcommittee request for DOJ conference information dated
          June 2005

DOJ Conference Lists Compiled by JMD

       An official from JMD Budget Staff told us that DOJ does not
maintain a single financial reporting system capable of providing the
information requested by the Subcommittee. Therefore, to respond to
the Subcommittee’s request, JMD issued a data call to financial
officials from each DOJ component. The data call stressed that JMD
required the actual amount each component spent for each of the
three items requested by the Subcommittee. Once JMD Budget Staff
received the information from the component contacts, they combined
the component figures into a single spreadsheet to represent DOJ
FY 2005 expenditures.




                                     5
      During our preliminary discussions with JMD Budget Staff in
August 2006, we were told that the Subcommittee had also requested
FY 2006 conference-related expenses. JMD officials told us that they
were compiling the FY 2006 list in a similar manner as the FY 2005 list.
In October 2006, JMD provided us with the final results of their 2006
data call that showed both the updated total conference-related costs
in FY 2005 and conference activity for FY 2006 as reported by DOJ
components.

       A member of JMD’s Budget Staff confirmed that the information
provided on the FY 2005 and 2006 lists was, “only as good as the
information provided to us by each component.” A review of the JMD
conference expenditure lists revealed that DOJ components did not
provide JMD with the actual costs for each individual conference, as
requested. Instead, we found that some components listed charges
related to a series of separate events as individual costs on a single
line-item. For instance, a $1.3-million expense reported on the JMD
list was actually the annual total cost incurred by sending employees
to a DOJ training facility. In another case, a group of training events
that occurred at separate locations were identified by a single line-
item.

      Of particular note, the Drug Enforcement Administration (DEA)
submitted the total amount spent on its FY 2006 conferences and
provided specific cost information for only three events. We contacted
DEA officials, who told us that while the DEA’s financial management
system could identify the total amount of conference costs, the system
could not readily identify specific conferences and associated
expenses.

       We asked DEA officials how they responded to the JMD data call.
An official with DEA’s Office of Resource Management told us that the
DEA could only obtain the requested information by making a data call
of its own from each DEA office with a conference budget. The official
also told us that because the DEA could not accomplish such a data
call within the short period of time allotted by JMD for a response, the
DEA would only provide specific cost information for three of its
conferences, all of which were sponsored by offices within DEA
headquarters in Arlington, Virginia.




                                   6
Conference Universe and Selection

       To produce a single list from which to sort reported conference
activity, we combined the individual conference data listed in the final
conference listings for FYs 2005 and 2006 compiled by JMD into one
spreadsheet and excluded any line-item that encapsulated more than
one event. From this list we selected 9 of the most expensive DOJ
conferences held within the United States and the most expensive
DOJ conference held in a foreign location.

      As shown in Table 2-2, six conferences were sponsored by
program offices within the Office of Justice Programs (OJP), three
were sponsored by the Federal Bureau of Investigation (FBI), and one
was funded by the Office of Community Oriented Policing Services
(COPS). 19




       19
          Appendix III presents facts, figures, and summaries pertaining to each
selected conference.


                                         7
        Table 2-2
                                     DOJ CONFERENCES SELECTED FROM JMD RECORDS

                                                                                                                                     Reported
         Formal Conference Name                   DOJ Sponsor            Short Name       Location Held          Dates Held          Cost ($)*
 Coordinating Council on Juvenile Justice and OJP, Office of Juvenile
Delinquency Prevention’s National Conference:       Justice and         OJJDP National
                                                                                         Washington, D.C.     Jan. 9 - 13, 2006      1,085,568
“Building On Success: Providing Today’s Youth       Delinquency          Conference
  With Opportunities for a Better Tomorrow”     Prevention (OJJDP)
2005 Community Capacity Development Office
                                                                        Weed and Seed
 (CCDO) National Conference: “Strengthening         OJP, CCDO                            Los Angeles, CA     Aug. 22 - 25, 2005        875,000
                                                                         Conference
      Communities One Block at a Time”
   2006 Project Safe Neighborhoods (PSN)       OJP, Bureau of Justice    PSN National
                                                                                           Denver, CO          May 2 - 5, 2006         864,110
              National Conference                Assistance (BJA)         Conference
4th National Symposium on Victims of Federal OJP, Office for Victims     OVC National
                                                                                           Atlanta, GA       March 7 - 11, 2005        727,300
                     Crime                        of Crime (OVC)          Symposium
  2006 CCDO Law Enforcement Conference:
“The Spirit of Service: Enforce, Empower, and       OJP, CCDO           LEC Conference     Phoenix, AZ       Aug. 14 - 17, 2006        610,000
                   Revitalize”
                                                   OJP, National
 7th Annual Technologies for Critical Incident                          NIJ Technology
                                                Institute of Justice                      San Diego, CA     Oct. 31 - Nov. 2, 2005     575,550
   Preparedness Conference and Exposition                                 Conference
                                                        (NIJ)
                                                                        FBI Polygraph
 FBI Annual Polygraph Examiner’s Conference             FBI                              Minneapolis, MN    June 26 - July 1, 2005     532,000
                                                                         Conference
2006 National Community Policing Conference:
                                                                      COPS National
 “Community Policing: Leading the Way to a           COPS                              Washington, D.C.       July 27 - 29, 2006       525,000
                                                                        Conference
                  Safer Nation”
 2006 FBI Information Technology Exchange                                FBI ITEC
                                                       FBI                              San Antonio, TX       Aug. 7 -10, 2006         500,000
               Conference (ITEC)                                        Conference
 FBI, Office of International Operations (OIO)                        FBI Cambodia       Phnom Penh,
                                                       FBI                                                   March 12 - 17, 2006       167,480
   Asia Unit Regional Training Conference                               Conference         Cambodia
 Source: FY 2005 and 2006 conference expenditure listings compiled by JMD, as combined by the OIG
       * “Reported Costs” may be estimates that do not necessarily include personnel or travel costs




                                                                        8
Conference Cost Categories

       Since components did not provide JMD with consistent
conference cost information, we sought to validate the actual DOJ cost
for each event selected from the combined FY 2005 and 2006
conference lists. We worked with the sponsoring DOJ components and
external event planners to develop a consistent breakdown of
expenses for all 10 conferences. We then sorted each type of
identified expense into different general categories that provided an
overview of the types of conference costs, as shown in Table 2-3.

Table 2-3
                   CONFERENCE COST CATEGORIES
External Event Planning. Labor and indirect costs, overhead fees, general
and administrative charges, and travel and related expenses incurred by the
event planning contractor or awardee.

Speakers. All speaker or presenter travel and related expenses, honoraria,
and fees.

Food and beverages. Any fees or costs regarding food or beverages
provided to conference attendees and staff, such as refreshments,
breakfasts, and lunches.

Audio-Visual. Expenses related to computers, projectors, lighting, stages,
technical assistance, and similar material or services.

Print Media. All costs associated with photography, printing, copying, press
release development, Web site design and hosting, and postage.

Subcontractors. Hotels, exhibitors, set-up, security, contracted technical
assistance, and payment processing costs, excluding audio-visual assistance
and catering services.

Signs and Door Items. Badges, podium logos, gifts, signs, banners, and
notepads.

Miscellaneous. All other variable costs that are not captured by the above
categories.

DOJ Employee Travel. All training or conference expenses incurred by DOJ
employees who traveled to the event.
Source: OIG analysis of conference expenditures




                             9
        DRAFT AUDIT REPORT – NOT FOR PUBLIC RELEASE
      As shown in Table 2-4, the total cost to plan and host these
conferences was nearly $6.2 million. 20 After calculating each event’s
planning and hosting costs, we identified DOJ employees on
conference attendee or registration lists. We found that many DOJ
personnel who attended these events were not employees of the
sponsoring component. Consequently, as described in Appendix I, we
requested and received voucher expense information from DOJ
components that sent employees to each conference. Using this
voucher information, we calculated that DOJ components collectively
spent almost $1.9 million to send employees to these 10 conferences.




     20
          This figure does not include DOJ personnel or other operational costs.


                                         10
        Table 2-4
                                        ALLOCATION OF CONFERENCE COSTS BY CATEGORY


                       OJJDP     Weed and     PSN        OVC                  NIJ        FBI       COPS                   FBI
                      National     Seed     National   National    LEC     Technology Polygraph   National   FBI ITEC   Cambodia
                     Conference Conference Conference Symposium Conference Conference Conference Conference Conference Conference
  Cost Category         ($)         ($)       ($)        ($)       ($)         ($)       ($)        ($)        ($)        ($)                          TOTALS
No. of Days              5            4            4             5            4           3           6            3           4            6
No. of Registrants     1,831        1,542        1,330          787         1,329       1,315         98         1,437        306           46
                                                               Planning & Hosting (P&H) Costs
1. External Event
                        605,619      197,565      196,798       310,394      145,767     409,535           n/a    213,174           n/a          n/a   2,078,852
   Planning
2. Speakers              35,742       82,229       31,561        55,356       96,759      95,473       3,682       94,486            0       3,947       499,235
3. Food and
                        291,940      394,008      108,866        98,350      181,002     175,101       7,468      274,546       8,334        4,219     1,543,834
   Beverages
4. Audio-Visual          62,930      147,779      143,469       148,738      122,577      38,976       1,496       89,185       7,747              0     762,897
5. Print Media           39,040       35,131        9,463        35,077       18,223      14,860           0       24,875           0              0     176,669
6. Subcontractors       313,914       27,623       69,052       103,744       38,972      82,531            0      69,683            0           924     706,443
7. Signs and
                          2,407       47,215       15,322         3,856             0           0           0       6,488            0             0      75,288
   Door Items
8. Miscellaneous          52,367      10,022      221,473        11,548            0       4,974           0       50,668           0          231       351,283
   Total P&H Costs     1,403,959     941,572      796,004       767,063      603,300     821,450      12,646      823,105      16,081        9,321     6,194,501
                                                                      Multi-Component Costs
9. DOJ Employee
                               0     105,105      638,371       318,631      124,411      17,576     117,251        1,754     364,966      172,327     1,860,392
   Travel
            Total
 Multi-Component               0     105,105      638,371       318,631      124,411      17,576     117,251        1,754     364,966      172,327     1,860,392
            Costs
        SUBTOTAL      1,403,959    1,046,677    1,434,375     1,085,694      727,711     839,026     129,897      824,859     381,047      181,648     8,054,893
Other Revenue          (505,657)            0            0              0           0   (561,938)           0            0           0             0 (1,067,595)
  FINAL DOJ COST       $898,302 $1,046,677 $1,434,375        $1,085,694     $727,711    $277,088    $129,897     $824,859    $381,047     $181,648 $6,987,298
   Sources:     OIG analysis of financial summary reports, drawdowns, and supporting invoices received from sponsoring components
                and external event planning companies and DOJ travel vouchers from DOJ attendees




                                                                               11
      The total planning and hosting cost incurred by sponsoring
components or their event planners includes all variable expenses
related to supporting the conference, regardless of the payment’s
source. As shown in Table 2-4, however, the total DOJ component
cost was offset, in part, for two conferences.

  •   OJJDP National Conference. Although the OJJDP National
      Conference cost $1,403,959 to sponsor, the OJJDP event
      planner collected $505,657 in registration fees from attendees
      and exhibitors to offset the total cost of the event.

  •   NIJ Technology Conference. The NIJ Technology Conference
      cost $821,450 to plan and host. However, we found that the
      Department of Homeland Security (DHS), Directorate of Science
      and Technology, provided NIJ with $150,024 to pay for a
      portion of the event. The NIJ event planner also collected
      $411,914 in registration fees from attendees and exhibitors,
      which was used to offset the total cost.

      These two events used more than $1 million in non-
appropriated DOJ funds to offset the sponsoring component’s hosting
and planning costs. Consequently, our review also captures activities
paid for by these non-DOJ sources.

       Neither the sponsoring component nor the total DOJ cost for
each event reconciles to the corresponding cost reported to and used
by JMD for its FY 2005 and 2006 conference expenditure lists
submitted to the Subcommittee. We discussed the difference between
the reported and actual DOJ costs with both JMD and sponsoring
component officials. Despite specific instructions to component
officials, we confirmed that components did not uniformly report their
conference costs to JMD. Regarding the 10 conferences we selected
for review, the discrepancies between calculated conference costs and
the JMD-reported costs stem primarily from components:
(1) reporting budgeted, awarded, or estimated costs instead of actual
expenses; and (2) inconsistently including travel and personnel costs
in their figures.

Selecting Conference Costs

       Since our audit involved 10 different conferences that had
different sponsors, event planners, attendees, and locations, we
focused our review on certain types of costs that were incurred at each
of the conferences. Excluding the DOJ employee travel costs incurred

                                  12
and approved by several different components, we compared the total
amounts spent by sponsoring components or event planners for each
cost category. As shown in Table 2-5, three cost categories – external
event planning, food and beverages, and audio-visual – represent
nearly $4.4 million, or 71 percent, of the $6.2 million spent to plan
and host the 10 conferences.

Table 2-5
     PLANNING AND HOSTING COST CATEGORY EXPENSES

                    Total Costs
                     Allocated
   Cost Category        ($)     %
1. External Event
                       2,078,852 34
   Planning
2. Speakers              499,235   8
3. Food and
                       1,543,834 25
   Beverages
4. Audio-Visual          762,897 12
5. Printed Media         176,669   3
6. Subcontractors        706,443 11
7. Signs and
                          75,288   1
   Door Items
8. Miscellaneous         351,283   6
            TOTALS $6,194,501 100
Source: OIG analysis of component and external event planning records

      Considering the amount spent on event planning, food and
beverages, and audio-visual equipment varied greatly between
conferences, we focused our review on these three cost categories.
See Appendix I for more details on our methodology.

Conclusion

      Our selection of 10 high dollar conferences to review for the
audit revealed that DOJ components did not report individual
conference expenditures consistently. In particular, we found that the
DEA reported only the total amount spent on its conferences and
detailed specific cost information for only three FY 2006 events.
When components report only estimated or budgeted conference
costs instead of actual costs, DOJ cannot completely or accurately
report the actual cost of its conferences.




                                       13
Recommendations

We recommend that JMD:

1)   Work with DOJ components to provide a uniform way to
     calculate and report conference costs.

We recommend that the DEA:

2)   Implement procedures allowing for it to report individual
     conference expenditures when requested by JMD or other
     oversight entity.




                                 14
Chapter 3: JUSTIFICATIONS

      The DOJ’s traditional law enforcement responsibilities and its
emphasis on prevention of terrorist acts require coordination of efforts
among all levels of government. To help fulfill DOJ’s mission,
components have used a variety of information-sharing approaches.
One of these approaches has included hosting and participating in
conferences with other federal, state, and local law enforcement
agencies and organizations.

       Individual DOJ components manage and approve their respective
participation in conferences. According to DOJ officials, the decision to
host an event or send employees to attend a conference is subject to
the availability of funds from individual component appropriations.
Since components have significant discretion regarding conferences,
we considered an adequate conference justification to include, at the
very least, a programmatic reason to hold the event and an approval
from an appropriate sponsoring agency official. The method used to
justify each event depended on whether the event was planned
internally or by an external event planner. Of the 10 conferences we
reviewed, 7 hired external event planners through either contracts or
cooperative agreements. In contrast, the FBI planned its three
conferences. We examined the justifications provided for the 10
conferences in the following sections of the report.

Justifications for Internally Planned FBI Events

      The FBI’s Training and Development Division (TDD) serves as
the FBI’s primary conference and training planner. TDD personnel
receive conference information from FBI sponsors that document
reasons and appropriate approvals to hold and finance FBI meetings
and other events. Once notified that an event is approved, the TDD
assists the FBI conference sponsor by arranging logistics for the event
and documenting site comparisons.

       We found that both the FBI ITEC Conference and the FBI
Polygraph Conference had justifications listed directly on approval
documents and TDD event-request forms. For instance, a November
2004 communication for the FBI Polygraph Conference stated that the
conference curriculum would satisfy much of the biennial, 80-hour
continuing education requirement mandated by the Department of
Defense Polygraph Institute that governs polygraph examiner
certification. Further, the event-request form provided a concise
                                   15
written statement of the purpose of the conference, its needs,
logistical requirements, and locations of similar previous conferences.

       With respect to the third FBI conference, the FBI’s
Office of International Operations (OIO) deploys legal attachés to
U.S. embassies to foster cooperation with foreign law enforcement
agencies. According to OIO conference planners, the reason to hold
the FBI Cambodia Conference was based on a recommendation
contained in a recent OIO inspection report issued by the FBI
Inspections Division. The inspections report found that OIO did not
perform adequate pre-deployment training and oversight of its legal
attachés. In response to this finding, an FBI conference planning
official told us that OIO decided to conduct annual week-long regional
trainings at each legal attaché office. 21

OJP and COPS Justifications for Contracts and Awards

       OJP and COPS hired external event planners to provide logistical
support and help plan seven of the conferences selected for review.
Justifications for these conferences are found on various types of
documents depending on how the sponsoring component procured the
event planner for each conference. Table 3-1 lists how each
conference’s external event planner was hired, either by contract or
cooperative agreement. 22




       21
           We noted that OIO did not follow the FBI’s general conference planning
procedure by contacting TDD for assistance because FBI policies do not explicitly
include foreign conferences in TDD’s area of responsibility.
       22
           According to the OJP Financial Guide, a cooperative agreement is a type of
award used when OJP anticipates substantial involvement with the recipient during
performance of the contemplated activity. Cooperative agreements can be awarded
to states, units of local government, or private organizations.


                                         16
       Table 3-1
             PROCUREMENT VEHICLES USED TO HIRE
            CONFERENCE EXTERNAL EVENT PLANNERS

                                                              Cooperative
               Conference Name                Contract        Agreement
             Weed and Seed Conference            X
             NIJ Technology Conference                              X
               PSN National Conference             X
              COPS National Conference                              X
                LEC National Conference            X
            OJJDP National Conference 23           X                X
               OVC National Symposium              X
        Source: OIG analysis of event planning documents

       When sponsoring components hired event planners via a
contract, we found summary purposes or reasons to hold the events in
the solicitation’s Statement of Work. For example, the OVC National
Symposium’s Statement of Work stated that the conference would
provide training that would be “essential to ensure that … personnel
can effectively work with victims, provide them with services that
foster healing, and enhance their satisfaction with and participation in
the federal criminal justice system.” The Director of OVC approved
this solicitation, its stated reason, and its associated requisition form in
June 2003. Planning documents for the Weed and Seed Conference,
the PSN National Conference, and the LEC National Conference, which
were also supported by contracts, offered similar types of reasons and
approvals.

      The NIJ Technology Conference, the OJJDP National Conference,
and the COPS National Conference used cooperative agreements to
hire external event planners. Each cooperative agreement used to
hire an event planner documented approval by an appropriate official
and contained additional narratives adequately describing the reason
to hold each conference.




       23
          The OJJDP National Conference used a contract to initially hire an external
event planner to provide logistical support. At some point during the planning
process, OJP issued this event planner a cooperative agreement to continue event
planning activities. See Chapter 5 for more information regarding this conference.

                                         17
Chapter 4: SITE COMPARISONS

      The FTR requires that, before selecting a conference’s location,
conference planners compare the costs of different sites. The FTR
defines a conference “site” as both its geographic location and the
specific facility used to hold the event. According to the FTR, adequate
cost comparisons should compare the availability of lodging rooms at
per diem rates; the convenience of the conference location; availability
of meeting space, equipment, and supplies; and the commuting or
travel distance of attendees. Additionally, the FTR states that
conference planners must also keep records of the comparisons to
show that the comparisons were performed and that there was an
appropriate rationale in selecting where to hold a conference. 24

      OJP and the FBI have developed additional policies governing
conference site selection to supplement cost comparison guidance
provided by the FTR. The policy at OJP requires conference planners
to consider at least three sites for each event. The policy also gives
OJP’s Office of Administration, Acquisition Management Division (AMD)
the responsibility for both maintaining the records showing the
selection of a conference site and assuring that appropriate cost
analysis has been conducted and documented. 25 In 2006, AMD
proposed a “Best Practices Guide” to be used by OJP conference
planners. Although not yet final, the draft guide requires that
conference sponsors document the purpose of the meeting, the reason
for choosing the location, a justification for use of non-federal facilities,
and cost estimates for market surveys.

       Since FY 2005, FBI training and conference planners have been
required to contact the TDD to determine if space is available to hold a
conference at the FBI Academy in Quantico, Virginia. If space is not
available, the TDD performs market surveys of potential locations that
compare one primary and two alternative sites. TDD market surveys
are completed on a standardized form and also include estimates for
applicable audio-visual and food and beverage costs. In 2006, the
TDD expanded this market analysis to include a review of three
government and three non-government facilities for availability,
location, and cost.


      24
           41 C.F.R. § 301-74 (2006).
      25
           OJP memorandum, dated March 27, 2001.

                                        18
Analysis of Conference Site Comparisons

        We interviewed officials who planned or coordinated each
conference to ascertain whether they performed site comparisons
required by the FTR. Some event planners told us that they were not
certain what type of comparisons – whether by city, by venue, or by
city and venue – were specifically required by the FTR. For example,
although the FTR requires conference planners to conduct a minimum
of three site comparisons, the FTR does not specify that these
comparisons need to include different cities or just directly comparable
facilities in the same market.

      As shown in table 4-1, planners for only 3 of the 10 conferences
performed and documented cost comparisons for both alternate cities
and venues within the selected city. The FBI’s TDD performed market
surveys that compared different cities and venues for the FBI
Polygraph Conference and the FBI ITEC Conference. Conference
planners for the NIJ Technology Conference also compared logistics for
both cities and venues.

   Table 4-1
        DOJ CONFERENCES SITE SELECTION METHODS

        Conference Name             City    Venue        Both   Other
    OVC National Symposium           X
    FBI Polygraph Conference                              X
    Weed and Seed Conference                                      X
    NIJ Technology Conference                             X
    OJJDP National Conference                  X
    FBI Cambodia Conference                                       X
    PSN National Conference          X
    COPS National Conference                   X
    FBI ITEC Conference                                   X
    LEC National Conference                                       X
        Source: DOJ component and event planning files

       The conference planners for the PSN National Conference and
the OVC National Symposium documented site comparisons for
different cities but not venues within the city selected for their
respective events. For example, the event planning contractor for the
OVC National Symposium compared per diem rates and airfare costs
for Atlanta, Dallas, Houston, and Memphis. OJP officials told us they
chose Atlanta based on its convenience and lower travel cost as a
major airline hub. We were also told that OJP contacted large hotel


                                     19
chains to negotiate favorable rates, but these discussions were not
documented in the conference file.

      Certain conference sponsors selected a particular city for logistic
and programmatic considerations. Since both the OJJDP National
Conference and the COPS National Conference were to be held in
Washington, D.C., which mitigated most federal employee travel costs,
sponsors performed no city cost comparisons. However, the
sponsoring organizations or their event planners each reviewed
alternative venues within Washington, D.C.

       FBI Cambodia Conference planners did not conduct site selection
comparisons, but organizers told us that Cambodia was selected for
the Asia Region’s training because of programmatic considerations. An
FBI official said that Phnom Penh was selected because the FBI wanted
to show interest in Cambodia as a potential legal attaché office and to
provide support to a training conference for local Cambodian National
Police leaders scheduled for the same week. We asked why the
conference planners did not compare venues within Cambodia for this
event. The planner stated that the classified nature of the topics
discussed at the conference required a level of security that could only
be achieved by the U.S. Embassy and therefore the FBI relied on
arrangements made by the embassy. The FBI event planner also told
us that U.S. embassies often find western-style hotels for visiting
officials based on security, proximity to the embassy, and acceptance
of government per diem.

      We found that the OJP’s Community Capacity Development
Office (CCDO) did not document uniform cost comparisons when it
selected locations for either the LEC Conference and the Weed and
Seed Conference. In both instances, however, CCDO told us that it
was primarily concerned with selecting host cities for programmatic
reasons. For the LEC Conference, CCDO officials told us that they
requested hosting proposals from several different cities, but only two,
Seattle, Washington, and Phoenix, Arizona, submitted proposals.
Event planners told us that because the LEC Conference was held “off-
season” and the Phoenix Convention Center was “brand new,” CCDO
was not charged for breakout meeting room space in Phoenix.
Furthermore, Seattle could not guarantee hotel rooms at authorized
per diem rates. Consequently, CCDO chose to hold the LEC
Conference in Phoenix.




                                   20
       For the Weed and Seed Conference, CCDO and OJP officials said
they selected Los Angeles as the host city for programmatic reasons.
CCDO told us that Los Angeles was selected because a primary topic of
the Weed and Seed Conference was anti-gang initiatives. CCDO and
OJP then received a presentation from a private, not-for-profit travel
bureau located in Los Angeles. As part of this presentation, CCDO was
told that the only hotel in Los Angeles large enough to host the Weed
and Seed Conference was the Westin Bonaventure Hotel and Suites
(Bonaventure).

      We researched the travel bureau and found that representatives
from area hotels comprise a portion of its board of directors. Since the
leadership of the travel bureau includes representatives of certain area
hotels, recommendations made by the travel bureau may not be
unbiased and in the best economic interest of the government.
Consequently, by relying solely on a travel bureau with vested
interests to recommend site locations, we do not believe that CCDO
conducted adequate site comparisons that ensured the best location
for the best available price.

Conclusion

      Event planners for the 10 conference we reviewed told us that
they were not always certain what types of site cost comparisons are
required by the FTR. Conference planners for only 3 conferences
provided us documentation showing that they conducted both city and
venue comparisons. To ensure that the government obtains the best
conference location for the best value, conference planners should
compare multiple sites in multiple cities. When an overriding
programmatic reason justifies holding an event in a particular city, we
believe that conference planners should at least conduct site
comparisons of different venues within that city.




                                  21
Recommendations

We recommend that JMD:

3)   Implement specific guidance regarding what comparisons of
     costs between different sites conference planners should perform
     to ensure the best location for the best value.

We recommend that OJP:

4)   Ensure that its conference planners develop and retain
     documents that evidence complete site cost comparisons.




                                22
Chapter 5: EXTERNAL EVENT PLANNING

      Conference planners play an important role in determining how
much an event will cost. While few rules or regulations describe
exactly how DOJ components must select and plan their conferences,
the FTR provides suggestions to federal agencies planning
conferences. According to the FTR, conference planners should work
closely with sponsoring agency officials to recommend and select the
best location, agenda, and dates for the conference. The FTR is
primarily concerned with whether the government is receiving the best
value for its event-coordinating dollar. To this end, the FTR states that
conference planners should:

      •    Minimize all conference costs, including administrative costs,
           conference costs, attendee travel costs, and conference
           attendee time costs;

      •    Maximize the use of government-owned or government
           provided conference facilities as much as possible;

      •    Identify opportunities to reduce costs in selecting a particular
           conference, location, and facility; and

      •    Develop and establish internal policies to ensure that FTR
           standards are being met.

       In January 2000, JMD updated DOJ’s conference planning rules
to reflect the conference planning guidance suggested by the FTR. 26

Procurement and Costs

      The FTR does not regulate how a sponsoring agency should
select a conference planner. The FBI planned its three conferences
internally, while OJP and COPS hired external event planners to work
with and plan the seven conferences they sponsored. To review how
the event planners were hired and the costs they charged, we selected




      26
          JMD Financial Management Policies and Procedures Bulletin No. 00-10
(January 2000)


                                       23
and reviewed three large, national scope conferences identified in
Table 5-1. 27

             Table 5-1
                OJP EXTERNAL EVENT PLANNING COSTS

                                      External                       Percentage
                                       Event                         of Planning
                                   Planning Cost       Number of     and Hosting
            Conference                  ($)            Registrants       Cost
OJJDP National Conference                605,619         1,831            43
NIJ Technology Conference                409,535         1,315            50
     CCDO LEC Conference                 145,767         1,329            24
                 TOTALS              $1,160,921           4,475
Source: OIG analysis of external event planner financial records

      OJP hired event planners by either awarding a contract through
its Acquisition Management Division (AMD) or through a cooperative
agreement awarded by the individual OJP program office. For the
OJJDP National Conference, OJP first contracted with and then
awarded a cooperative agreement to an external event planning firm.
To pay external event planning costs associated with the 2005 NIJ
Technology Conference, OJP provided funds via a supplement to an
already-existing cooperative agreement to a private, non-profit
technology commercialization company. OJP awarded a different
event planning firm a task order to plan and support two separate
events, including the CCDO LEC Conference, under an existing contract
the event planning firm had with the National Institutes of Health
(NIH).

       We met with officials from OJP who had hired external event
planners and were told that contractors and awardees conduct much of
the conference planning work, but sponsoring program officials are
“constantly involved” with the external event planning process. In all
cases, planning officials told us that they spent considerable time and
effort working closely with those providing logistical support for these
events.




       27
          Appendix I outlines the methodology used to choose conferences to review
their event planning costs.

                                         24
       According to OJP officials, program offices used cooperative
agreements to hire event planners to provide both programmatic and
logistical support for a conference. 28 Event planners hired under both
types of procurement vehicles supplied logistical services for each
event, including to: (1) perform location visits and contract with a
hotel and other subcontractors; (2) promote the conference and
manage its registration process; and (3) manage all on-site activities
during the conference.

       Our review of the charges paid by OJP to plan each conference
found that indirect charges incurred under the two cooperative
agreements appear to comprise a much more significant portion of the
total external event planning cost than the conference planned under a
contract. 29 The following sections describe how OJP hired these event
planners and different types of direct and indirect costs they incurred.

OJJDP National Conference

      In June 2003, OJP’s AMD awarded a blanket purchase agreement
valued at $10 million to a company to provide broad administrative
support and technical assistance to OJJDP and the Coordinating
Council on Juvenile Justice and Delinquency Prevention (Coordinating
Council). 30 The wide-ranging support provided by the contractor as
part of this agreement is referred to as the Juvenile Justice Resource
Center (JJRC). In part, the JJRC contract tasks the event planner to
provide logistical support to Coordinating Council and OJJDP events. 31

       28
          For the purposes of this review, programmatic support means a service
designed to achieve the OJP conference’s mission or objective, while logistical or
administrative support includes activities required to plan and host a large-scale,
national conference separate from the conference’s specific mission or objective.
       29
           Indirect costs are incurred charges that cannot be readily identified with a
particular direct or final cost, such as those relating to facility use and depreciation,
debt interest, capital improvements, equipment costs, maintenance, and
administration.
       30
           Established by the Juvenile Justice and Delinquency Prevention Act, the
Coordinating Council is an independent body within the executive branch of the
federal government to coordinate federal juvenile delinquency prevention programs
and activities. The Coordinating Council is chaired by the Attorney General, while
the OJJDP Administrator serves as vice-chair.
       31
          We note that the company selected by the JJRC contract specializes in
more than just event planning activities. We found that the contractor also provides
OJP and other DOJ components information technology services, program consulting,
curriculum development, and law enforcement research support.

                                           25
      In May 2005, OJP requested that the contractor begin planning
the OJJDP National Conference under the JJRC contract. The work
order detailed that the event planner was to perform both logistical
and programmatic tasks to select the conference location, speakers,
attendees, and calendar. Among other things, the contractor was
directed to develop an exhibitor marketing plan and to work with
OJJDP to set registration fees that would be charged to conference
attendees.

      In subsequent work orders, OJP also requested that the
contractor select and hire subcontractors to provide technical
assistance support for certain aspects of the conference. For example,
the OJJDP event planner used the JJRC contract to secure a
subcontractor to design the plenary session stage and supply the
video, lighting, and computer equipment for the event. As shown in
Table 5-2, our review of financial records showed that the JJRC
contract charged $345,854 for planning the OJJDP event.

    Table 5-2
                  JJRC CONTRACT CONFERENCE COSTS

                                                                     Amount
     Cost Category                      Activity                    Billed ($)
                    Direct Labor and Indirect Rates
     External Event
                    associated with 1,735 work          107,910
     Planning
                    hours.
                    Technical assistance support for
     Subcontractors                                     237,944
                    conference related activities. 32
                                                TOTAL $345,854
    Source: OJJDP event planner budget records




       32
          JJRC contract work orders numbered 3-70, 3-75, and 3A-15 requisitioned
a subcontractor to provide technical assistance support such as audio, lighting,
staging, and video services for the conference’s five plenary sessions and its “Town
Hall” meeting. We do not consider these services “external event planning costs”
since these services are technical support and not performed by the external event
planner.


                                         26
       While planning the conference under the JJRC contract, however,
the contractor applied for a new cooperative agreement from OJP to
manage and coordinate “pre-conference, on-site, and post-conference
support” activities for the OJJDP National Conference. An attachment
to the submitted cooperative agreement entitled “FY05 Continuation
Solicitation” listed collecting, processing, and tracking exhibitor and
attendee fees among other conference support duties the event
planner agreed to perform. The attachment added that the
registration fees would be used to “offset expenses for meals and
other conference expenses.”

      On September 14, 2005, OJP awarded the contractor a
cooperative agreement with an approved budget totaling $1,780,561
to continue planning the conference. OJJDP officials told us that OJP
did not use a formal competitive announcement process to award this
cooperative agreement because they wanted to continue using the
same contractor who already provided conference “pre-planning”
under the JJRC contract. 33 The approved budget for the cooperative
agreement allocated $780,561 of DOJ funds and provided for an
additional $1,000,000 in “program income,” which was to be
generated by the event planner charging and collecting exhibitor and
attendee registration fees. 34

      We examined the types of event planning costs incurred by the
OJJDP event planner while performing duties under the cooperative
agreement. Working with the event planner to capture and categorize
conference costs, we found that the event planner charged a total
$497,709 under the cooperative agreement for salaries, indirect costs
based on overhead and general and administrative rates, and travel
expenses for event planners to staff the conference as shown in Table
5-3.




       33
          OJP awarded cooperative agreement number 2005-MX-FX-K001 under
42 U.S.C. §5665 (2005), which gives the OJJDP Administrator the authority to make
grants and contracts with private agencies and organizations to carry out projects for
the development, testing, and demonstration of promising initiatives and programs
to prevent, control, or reduce juvenile delinquency.
       34
           According to Office of Management and Budget Circular A-110, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations, program income is income
directly generated by a supported activity or earned as a result of the award.


                                         27
           Table 5-3
                   OJJDP COOPERATIVE AGREEMENT
                       EVENT PLANNING COSTS

                          Type of Cost                     Amount ($)
            Direct Labor (Salaries)                           203,528
            Overhead (82% of direct labor cost)               167,552
            OJJDP Event Planner Employee Travel                 5,730
            General and Administrative
                                                                120,899
            (13% of all costs totaling 937,206)
                                               TOTAL          $497,709
           Source: OJJDP event planner billing and accounting records

      Direct Labor and Travel Costs

       For the direct labor charges, we analyzed time reports showing
the employee name and the hours spent performing conference
planning functions. According to the terms of the cooperative
agreement, event coordinator employee pay was based on their
position or role in planning the conference. For example, the
agreement paid administrative support employees $18 per hour while
the project coordinator received $58 per hour. Under the cooperative
agreement, we found that 68 event planner employees worked a total
of 7,648 hours and incurred $5,730 in travel costs. 35

      Indirect Costs

      For cooperative agreement indirect costs, we found the event
planner applied an overhead rate of about 82 percent to direct labor
costs and a general administrative rate of nearly 13 percent to all
costs. Both of these rates were based on the results of an accounting
report on the event planner’s adjusted cost schedule performed during
June 2005 and approved by OJP in October 2005. Applied to the
$203,528 direct labor charge, the 82-percent overhead rate totaled
$167,552. According to event planner officials, since overhead rates
are based on costs associated with providing the direct labor, the
overhead rate can only be charged against direct labor costs.




      35
          These figures do not include any subcontractor employees or hours
worked by subcontractors on conference-related activities. These costs would be
captured under the “Subcontractors” cost category.


                                         28
       The OJJDP event planner also applied a general and
administrative flat-rate charge of almost 13 percent, or $120,899, to
all program costs as shown in Table 5-4.

    Table 5-4
                  OJJDP COOPERATIVE AGREEMENT
                GENERAL AND ADMINISTRATIVE COSTS

                                         Direct and        General &
                                         Overhead        Administrative
                                       Program Costs      Rate Charge
           Cost Category                     ($)              ($)
       External Event Planning*                  376,810         48,608
                      Speakers                    35,742          4,611
           Food and Beverages                    291,940         37,660
                   Audio-Visual                   62,930          8,118
                    Print Media                   39,040          5,036
                Subcontractors*                   75,970          9,800
         Signs and Door Items                      2,407            311
                  Miscellaneous                   52,367          6,755
                    SUBTOTAL                  $937,206       $120,899
                         TOTAL                            $1,058,105 36
     Source:    OJJDP event planner conference cost reports.
           *    Costs captured in these categories include only expenses incurred
                and charged by the OJJDP event planner under the cooperative
                agreement and not the JJRC contract.

      We asked OJP and OJJDP officials why they awarded the
contractor a cooperative agreement when it was already performing
conference planning duties under the 2003 JJRC contract (discussed
further in Chapter 8). OJP officials stated that a Government
Accountability Office (GAO) decision issued in March 2005 disallowed
federal agencies or their contractors from charging or using conference
registration fees without specific authorization from Congress. 37
Without being able to charge registration fees, OJP officials told us that
OJJDP would not be able to host the event.



       36
           The total does not apply the $505,657 collected as registration fees since
the OJJDP event planner did not use this revenue to offset conference costs before
calculating its general and administrative rate charges. The OJJDP event planner
told us the money collected as registration fees was used to offset certain types of
conference costs, such as the entire cost of food and beverages.
       37
         Comptroller General Decision B-300826, National Institutes of Health –
Food at Government-Sponsored Conferences, issued March 3, 2005.

                                          29
      OJP officials also told us that canceling the OJJDP National
Conference in light of the GAO decision was not an option because the
date was set and agreed to by the Coordinating Council. Since the
conference still required the financial support provided by registration
fees and contractors could not collect registration fees, OJP decided to
award the event planner a cooperative agreement. By performing
event planning duties under a cooperative agreement, the event
planner technically ceased to be a contractor and OJP officials told us
they could then collect registration fees as program income.

      Since OJP paid external event planning costs under both the
JJRC contract and a cooperative agreement, we added the amount
charged and hours worked under both procurement instruments to
determine the total event planning costs for the OJJDP National
Conference. As shown by Table 5-5, the OJJDP event planner spent
9,383 work hours to provide external event planning services for the
event.

    Table 5-5
                      TOTAL OJJDP EVENT PLANNER
                    DIRECT LABOR HOURS AND COSTS

                                             Hours               Amount
            Instrument                      Worked             Charged ($)
      Contract                               1,735                  107,910
      Cooperative Agreement                  7,648                  497,709
                     TOTALS               9,383 hours             $605,619
     Source: OJJDP event planner billing and accounting records

      Residual Funds

      Since the OJJDP event planner used the $505,657 in registration
fees to offset conference costs, we found that the cooperative
agreement award had a remaining balance of $225,117. We spoke to
OJJDP event planning officials and they indicated that there were no
further logistical support duties planned for the OJJDP National
Conference. Therefore, we recommend that OJP deobligate the
remaining balance of $225,117, thereby allowing these funds to be put
to a better use. 38




      38
           Appendix II lists our schedule of dollar-related findings.

                                           30
NIJ Technology Conference

      In July 2004, the Department of Homeland Security’s (DHS)
Directorate of Science and Technology entered into an arrangement
with NIJ to collaborate and coordinate demonstrating, evaluating, and
testing certain technologies related to law enforcement and
counterterrorism. The collaboration recognized that since NIJ and DHS
have similar missions to support research and technology development
for national public safety interests, both organizations should work
together to give technology assistance to state and local public safety
agencies.

       The NIJ Technology Conference provided a forum for state and
local emergency responders to meet and discuss their technological
needs with federal, private, and academic technology developers. To
plan this conference, NIJ hired a not-for-profit technology
commercialization company (NIJ event planner) to provide overall
program management by awarding a $550,000 supplement to an
existing cooperative agreement. 39 In addition, NIJ received $150,024
from DHS, which it used to pay a portion of event planning costs for
the Technology Conference. 40

      Although the cooperative agreement was not awarded until
September 2005, the Statement of Work detailed the agreement’s
period of performance from January to December 2005. The NIJ event
planner told us that conference planning activities began in April 2005.
We asked why the event planner began work on the agreement before
it was actually awarded. Officials with the NIJ event planner told us
that several months of dedicated effort were required to:
(1) secure an appropriate venue that could accommodate the
conference’s attendees, (2) notify and select vendors who would
exhibit technology at the event, and (3) choose and secure speakers.


      39
          Besides planning the Technology Conference, the officials with the
company selected by NIJ told us they also provide services related to technology
research and policy development, marketing and industry consultation, and security
and management planning.
      40
          In November 2005, a similar agreement between NIJ, DHS, and the
Department of Defense (DoD), Office of the Assistant Secretary of Defense for
Homeland Security was established. According to the conference’s final report
prepared by the non-profit planner, DoD provided an additional $50,000 to the event
planner to provide specified conference-related tasks. The final report states that
these funds were used to pay for certain on-site personnel expenses and the cost of
transporting attendees to off-site programs and tours.

                                        31
      The cooperative agreement charged the NIJ event planner with
providing both logistical and programmatic support for the conference.
We examined the types of event planning costs incurred by the NIJ
event planner and charged to the NIJ cooperative agreement. We
found that the non-profit planner billed a total $409,535 for salaries,
indirect costs based on overhead and general and administrative rates,
and travel expenses for event planners to staff the conference as
shown in Table 5-6.

      Table 5-6
         NIJ TECHNOLOGY CONFERENCE NON-PROFIT
                  EVENT PLANNER COSTS

                       Type of Cost                     Amount ($)
         Salaries (3,525 hours)                            126,077
         Overhead (131% of direct labor cost)              164,669
         NIJ Event Planner Travel                           14,074
         General and Administrative
                                                              104,715
         (15% of all costs totaling $716,735)
                                            TOTAL           $409,535
        Source: NIJ event planner billing and accounting records

     Direct Labor and Travel Costs

       For the direct labor charges, we analyzed individual employee
time sheets showing the employee name and the hours spent working
on Technology Conference duties. According to terms of the
cooperative agreement, employee pay was based on their position or
role in planning the conference. For example, the agreement paid
administrative staff about $17 per hour while the project manager
received $54 per hour. We found that event planner employees
worked a total of 3,525 hours on cooperative agreement activities and
incurred $14,074 in travel costs.

     Indirect Costs

       For cooperative agreement indirect costs, we found that the NIJ
event planner applied an overhead rate of almost 131 percent to direct
labor costs and a general and administrative rate of nearly 15 percent
to all costs. Both the overhead rate and the general and
administrative rate were set by a March 2005 review performed by the
non-profit planner’s cognizant federal agency, the Department of
Defense. Applied to the $126,077 direct labor charge, the 131 percent
overhead rate totaled $164,669. According to event planner officials,

                                      32
since overhead rates are based on costs associated with providing the
direct labor, the overhead rate was only charged to direct labor costs.

       The NIJ event planner also applied a general and administrative
flat-rate charge of almost 15 percent, or $104,715, to all program
costs, which under the cooperative agreement totaled $716,735, as
noted in Table 5-7.


    Table 5-7
                  NIJ COOPERATIVE AGREEMENT
              GENERAL AND ADMINISTRATIVE CHARGES

                                             Direct and         General &
                                             Overhead         Administrative
                                              Program          Rate Charge
              Cost Category                  Costs ($)             ($)
              External Event Planning            304,820              44,534
                            Speakers              95,473              13,949
                 Food and Beverages              175,101              25,582
                         Audio-Visual             38,976               5,694
                          Print Media             14,860               2,171
                       Subcontractors             82,531              12,058
                Signs and Door Items                    0                  0
                        Miscellaneous               4,974                727
                          SUBTOTAL             $716,735            $104,715
                               TOTAL                             $821,450 41
     Source: NIJ event planner financial records.

      With $304,820 charged for external event planning activities and
$104,715 for general and administrative costs, the NIJ event planner
spent a total of $409,535 to provide external event planning services
for the NIJ Technology Conference.

       Residual Funds

       NIJ event planner records show that the Technology Conference
cost a total of $821,450. Since the NIJ event planner applied the
collected $411,914 in registration fees as revenue to offset the total
conference cost, the NIJ event planner used $409,536 of the awarded
$550,000 to pay for the conference. Officials at the event planning

       41
           The total does not apply the $411,914 collected as registration fees since
the non-profit planner did not use the revenue to offset conference costs before
calculating its general and administrative rate charges.

                                          33
agency told us that the residual $140,464 was reprogrammed for them
to fund “pre-planning” tasks for NIJ’s 2006 Technology Conference in
Atlanta, Georgia.

CCDO LEC Conference

      OJP’s AMD issued a request for quote for a contractor to support
two separate CCDO events. The first event, called the Strategy
Development Training Conference, was set for March 2006, while the
second event, the LEC Conference, was to be held in August 2006. In
July 2005, the LEC event planner submitted a quote and was
subsequently awarded a $1 million task order by OJP under the event
planner’s government-wide contract with the Department of Health
and Human Services, National Institutes of Health (NIH), Office of
Procurement Management.42

      The NIH contract was in the form of a government-wide 5-year
indefinite-delivery agreement with an estimated value of $80 million.
Under its terms, the LEC event planner would perform logistical event
planning work described in task orders that would be individually
competed and priced by either NIH or another requesting federal
agency. The NIH contract also established firm-fixed, hourly rates that
included labor and associated overhead costs, while all other expenses
would be “passed-through” and billed on an actual cost basis. The
contract permitted the event planner to assess a pre-defined handling
charge based on a percentage of pass-through costs, as established in
a task order bid. All non-NIH task orders would be assessed a fee of
1 percent that would be applied to the total event planning cost.

       Since the OJP task order used to hire the CCDO event planner
encompassed two different CCDO events, we met with event planning
officials to determine how best to identify only LEC conference-related
costs. LEC event planning officials told us that the labor charges
incurred through April 2006 primarily involved planning, hosting, and
closing out the Strategy Development Training Conference, which they
told us occurred sometime in March 2006. Consequently, we
considered the labor rates that were billed beginning in May 2006
related to the LEC conference since the Strategy Development Training
Conference was completed by that time.



      42
         Unlike the OJJDP and NIJ event planners, the LEC event planning
company’s primary concern was to provide conference and meeting management
and support.

                                     34
      Using May 2006 as the starting period for LEC conference costs,
we found that the LEC event planner charged a total of $145,767
under the task order for labor rates, travel costs, and other associated
fees, as shown in Table 5-8.

       Table 5-8
           SUMMARY OF LEC EVENT PLANNER COSTS

                                                         Amount
                      Type of Cost                        ($)
         Labor Charges (1,464 hours)                      121,691
         Travel and other related costs                     4,355
         Fixed Fee (3% handling charge
                                                            13,748
         applied to costs totaling $458,246)
         NIH Fee (1% of all costs totaling
                                                                5,973
         $597,327)
                                         TOTAL          $145,767
        Source: Event planner invoices and accounting records

       We analyzed time reports showing employee names and the
hours charged to perform conference planning activities. According to
terms of the contract, the event planner was paid for work based on
fixed labor rates, not actual payroll costs. We found that 19 LEC event
planner employees charged a total of 1,464 hours, at a cost of
$121,691. The event planning company also incurred $4,355 in travel
and other related costs.

      As shown in Table 5-9, the event planner applied a 3 percent
handling fee totaling $13,748 to all non-labor actual costs charged to
the task order. Since the task order was under the comprehensive
NIH contract, NIH assessed a fee of $5,973, or 1 percent of all task
order costs, including the handling charge, totaling $597,327.




                                     35
 Table 5-9
                  CHARGES AND FEES APPLIED TO
                     LEC CONFERENCE COSTS

                                              Direct
                                             Program       Handling
            Cost Category                    Costs ($)      Fee ($)
                 External Event Planning       126,046             105
                               Speakers         96,759           2,903
                    Food and Beverages         181,002           5,430
                            Audio-Visual       122,577           3,677
                             Print Media        18,223             464
                          Subcontractors        38,972           1,169
                   Signs and Door Items              0               0
                           Miscellaneous             0               0
                             SUBTOTAL         583,579          13,748
  TOTAL DIRECT AND HANDLING COSTS                             597,327
            NIH Fee (1% of subtotal)                             5,973
                                  TOTAL                     $603,300
 Source: LEC event planner invoices.

Conclusion

       Our review of the three large, national-scope conferences found
that OJP hired external event planners by issuing contracts or
awarding cooperative agreements from its appropriated grant funds.
Contracting officers at AMD issued contracts, while cooperative
agreements were issued and managed by individual program offices
within OJP. In the case of the OJJDP National Conference, OJP hired
its external event planner first through a contract and subsequently
through a cooperative agreement.

       All three of the event planners reviewed provided logistical and
administrative support to help OJP program offices prepare for their
respective conferences. These services included performing location
visits and site selection analysis, establishing contracts with venues or
hotels for meeting space and attendee rooms at per diem rates, and
preparing budgets and reports for review by OJP officials. These
activities directly relate to FTR and DOJ rules requiring that conference
planners try to obtain the best value for the government.




                                       36
      However, although the conferences were similar in scope and
size – all 3 events had multi-day programs and over 1,300 registrants
– the number of hours billed by the event planners ranged from over
9,000 hours to under 1,500 hours, as shown in Table 5-10.

Table 5-10

                 EXTERNAL EVENT PLANNING COSTS
                    OF SELECTED CONFERENCES

                                        External
                                         Event       Number       Percentage
                                        Planning     of labor     of Planning
    Name of           Procurement         Cost        hours       and Hosting
   Conference            Vehicle           ($)        billed          Cost
                      JJRC Contract
OJJDP National             and
                                         605,619       9,383              43
Conference             Cooperative
                        Agreement
NIJ Technology         Cooperative
                                         409,535       3,525              50
Conference              Agreement
CCDO LEC
                         Contract        145,767       1,464              24
Conference
Source: OIG analysis of event planner performance and financial records

      Event planners told us they provided different levels of logistical
support for each of the conferences. For example, the OJJDP event
planners told us they worked closely with OJJDP officials and other
members of the Coordinating Council to develop and evaluate
conference workshop themes and select speakers at these functions.
Similarly, the NIJ event planner told us it worked with NIJ, DHS, and
DoD officials to identify the attendee and exhibitor audience and put
together significant off-site incident response tours.

       While the above may help explain differences in the amount of
hours billed by the individual event planners, it does not speak to the
level of indirect rates charged to plan each of the conferences. As a
general rule, indirect rates are determined by a company’s overhead
and equipment costs, facility fees, debt payments, and administrative
expenses. This means that companies performing technical or
scientific services may have high indirect cost rates to pay for the tools
necessary to conduct these activities. Under cooperative agreements,
the OJJDP and NIJ event planners applied overhead rates of 82 and
131 percent, respectively, on all direct labor charges. In addition,
both event planners charged a general and administrative rate ranging
from 13 to 15 percent to all conference planning expenses.

                                       37
Meanwhile, the LEC event planning company, whose business almost
solely focuses on providing conference and meeting support, charged a
flat hourly rate. This event planner then applied a 3 percent fixed fee
to all non-labor conference planning charges.

       Since OJP program offices award event planning cooperative
agreements and the AMD awards event planning contracts, no one
office within OJP assesses all event planning expenses. As a sponsor
of many large, national-scope conferences each year, we believe that
OJP should evaluate how it solicits, hires, and assesses event planners.
As exhibited by the wide-range of hours and indirect rates charged by
these three event planners, we believe that such oversight is
necessary to ensure that event planning costs comply with FTR and
DOJ conference planning guidelines.

Recommendations

We recommend that OJP:

5)    Deobligate the $225,117 remaining balance of cooperative
      agreement number 2005-MX-KX-K001.

6)    Evaluate methods to solicit, hire, and assess external event
      planners to ensure that conference planning costs comply with
      FTR and DOJ conference planning guidelines.




                                  38
Chapter 6: FOOD AND BEVERAGES

       Federal agencies have considerable discretion in providing food
and beverages during a government-sponsored conference. According
to the FTR, agencies may provide light refreshments to employees
attending conferences. Light refreshments include coffee, tea, milk,
juice, soft drinks, donuts, bagels, fruit, pretzels, cookies, chips, or
muffins. 43 The Training Act also permits federal agencies to pay for
necessary costs of training, which can include food and beverages at
conferences that relate to functions or activities for which they receive
funding. 44 In interpreting the Training Act, the GAO identified three
circumstances where federal agencies may provide food and beverages
to conference attendees.

   •   The provided meals and refreshments are incidental to the
       conference;

   •   Attendance at functions where food and refreshments are
       provided is necessary to ensure full participation in essential
       discussions, lectures, or speeches concerning the purpose of the
       conference; and

   •   The meals and refreshments are part of the formal conference
       that includes substantial functions occurring separately from
       when the food is served.

      Although the Training Act focuses on costs related to training
federal employees, conferences may involve non-federal employees.
In a March 2005 decision, the GAO stated that the identity or status of
the food and beverage recipient should not change the character of the
expense from allowable to unallowable. 45 As a result, the three
circumstances necessary to provide food and beverages to federal
employees should be the same for a federally funded conference
involving private citizens whose participation is necessary to achieve
the conference’s program or objective.



       43
            41 C.F.R. § 301-74.11
       44
            5 U.S.C. §§ 4109 - 4110 (2006).
       45
         Comptroller General Decision B-300826, National Institutes of Health –
Food at Government-Sponsored Conferences, March 3, 2005.

                                         39
      According to the OJP Financial Guide, Chapter 7, expenses
incurred for food and beverages provided at OJP-financed events
should be: (1) reasonable, (2) related to the subject of a work-related
event, and (3) not directly related to amusement or social events. 46

Itemized Food and Beverage Costs

       For the 10 conferences we reviewed, DOJ components
collectively spent over $1.5 million on food and beverages, which
represents approximately one quarter of the $6.2 million spent to plan
and host the conferences. To review food and beverage costs, we
selected the four conferences identified in Table 6-1. 47

Table 6-1
                 REVIEWED FOOD AND BEVERAGE COSTS

                                                                       Percentage
                                     Food and                          of Planning
                                     Beverage         Number of        and Hosting
            Conference               Cost ($)         Registrants          Cost
Weed and Seed      Conference            394,008        1,542                42
 COPS National     Conference            274,546        1,437                33
 FBI Polygraph     Conference              7,468          98                 59
 FBI Cambodia      Conference              4,219           46                45
                     TOTALS            $680,241          3,123
Source: OIG analysis of conference financial documents

      Of the four selected conferences, the Weed and Seed Conference
and the COPS National Conference were attended primarily by non-
DOJ employees, while FBI employees constituted the majority of
attendees at both of its conferences. To review the amount and cost
of food and beverages served at each conference, we identified the list
price of the items and calculated the actual price charged by the
venue, which included applicable taxes and service charges paid for
each menu item. We also examined the purpose of the functions

       46
           According to the OJP Financial Guide, “reasonable” means those costs that
a prudent person would have incurred under the circumstances prevailing at the time
the decision to incur the cost was made. The Guide specifies costs that should be
considered when making judgments about reasonableness including the cost of food
and beverage, total cost of the event, and costs incurred relative to costs in the
geographical area. The exception of this definition is lodging costs for events of 30
or more participants, when the event is funded with an OJP award. For these events,
reasonable is defined as the federal per diem rate for lodging.
       47
           Appendix I outlines the methodology used to choose conferences to review
their food and beverage costs.

                                        40
where food and beverages were provided, and whether food and
beverage costs incurred were in compliance with applicable rules and
regulations.

Weed and Seed Conference

      As part of its Weed and Seed program, CCDO has held national
conferences for program partners approximately every other year
since 1994. 48 Focusing on subjects like re-entry programs for released
inmates, effective law enforcement strategies, and improving
community relations, 1,542 community representatives, law
enforcement officials, and local, state, and federal prosecutors
registered to attend for the August 2005 conference, which was held
at the Bonaventure Hotel in Los Angeles, California.

       OJP and CCDO hired an event planning company to provide
logistical support for the conference. As detailed in Chapter 4, CCDO
told us that the Bonaventure was selected as the venue for the
conference because a private travel bureau reported that it was the
only hotel in the Los Angeles area that could accommodate the large
number of people attending the event. Since the Bonaventure was
pre-selected by OJP and CCDO officials, the event planner worked with
the hotel to provide the meals and refreshments for the conference.

       CCDO spent $394,008 to provide 4,600 continental breakfasts,
2,987 lunches, 6,225 snack items, 22,723 beverages, and a $60,000-
themed networking reception for the 1,500 attendees and staffers. As
shown in Table 6-2, the $394,008 cost included the menu price (list
price), a 20 percent service charge the Bonaventure applied to the list
price, and an 8.25 percent California and locality sales tax that was
applied to the subtotaled list price and service charge. 49




       48
          The Weed and Seed program seeks to reduce violent and drug-related
crime (“weed”) and to promote community development (“seed”).
       49
           Although the federal government is exempt from local taxes on direct
payments, the contractor paid the hotel directly and was therefore assessed the
sales tax on all goods, rents, and services provided.

                                        41
Table 6-2
  WEED AND SEED CONFERENCE FOOD AND BEVERAGE COSTS
                 August 22 to 25, 2005
                                         List Price Price Paid
                                          Per Unit   Per Unit       Adjusted
                                Number   or Serving or Serving     Total Cost*
     Food or Beverage          Purchased     ($)       ($)*           ($)
Breakfasts
        Continental Breakfasts       4,600     16.75       21.76        100,096
Lunches
             Deli Lunch Buffets          45    29.00       37.67          1,695
               Salmon Lunches        1,476     38.50       50.01         73,815
               Chicken Lunches       1,316     29.75       38.65         50,863
 Working Groups Lunch Buffets           120    41.00       53.26          6,391
  CCDO Staff Meeting Lunches             30    34.00       44.16          1,325
Snacks
         Cookies and Brownies        3,804      2.67        3.47         13,199
                   Granola Bars          40     3.00        3.89            156
                  Bags of Chips      2,280      2.50        3.25          7,410
                         Yogurt           6     3.75        4.87             29
          1 Large Fruit Display 50 Servings     3.90        5.06            253
          1 Small Fruit Display 15 Servings     3.33        4.33             65
   CCDO Staff Meeting Snacks             30    19.00       24.68            740
Beverages
                        Cups of
                                    15,520       2.15       2.79         43,301
             Columbian Coffee
               Bottles of Water      4,304       3.75       4.87         20,960
                  Cans of Soda       2,872       3.50       4.55         13,067
       CCDO Staff Meeting Soft
                                         27      3.25       4.22            114
                          Drinks
Reception
“Stars and Stripes” Networking
                                     1,000     41.00       53.26         53,260
                      Reception
                3 Cheese Trays 300 Servings      4.40       5.72          1,716
             3 Vegetable Trays 300 Servings      3.65       4.74          1,422
         6 California Roll Trays 300 Pieces      7.30       9.48          2,844
    6 Roasted Vegetable Wrap
                                 300 Pieces      3.30       4.29          1,287
                           Trays
                                                              TOTAL    $394,008*
Source: OIG analysis of component and external party planner documents
     * Figures adjusted to account for rounding due to a 20-percent
        service charge and sales taxes applied to individual receipts.




                                       42
      Applying the total $394,008 cost to each of the 1,542 conference
registrants, CCDO spent an average of $256 per person, or $64 per
day, on food and beverages. The average conference attendee
received four breakfasts, two lunches, one reception, and an
assortment of light refreshments over the four days of the conference.
For comparison purposes, the GSA meals and incidental expenses
(M&IE) rate for Los Angeles for August 2005 was $51 per day for
breakfast, lunch, and dinner. 50

       According to CCDO officials, the conference’s packed agenda
required them to provide meals and refreshments to attendees. The
dozens of breakout sessions, learning labs, and working groups that
addressed different types of community development and outreach
efforts meant that CCDO had limited opportunities to address all
conference attendees. Therefore, CCDO decided to host two lunches
and a networking reception during the 4-day conference. CCDO
officials said they used these two “working lunches” to present honor
awards to outstanding Weed and Seed program partner sites, while
the networking reception featured poster and video awards. CCDO
officials also told us that the awards ceremonies at lunch and the
reception gave them a chance to highlight the attributes that made
each partner site exemplary.

       We discussed the $394,008 cost of food and beverages with
CCDO officials and the event planner. The event planner told us that it
is well known that food and beverage charges at hotels in large cities
are “often shocking.” We asked whether the event planner considered
less expensive catering solutions for the conference other than those
provided by the hotel. The event planner told us that when an event
such as the Weed and Seed Conference takes place at a hotel, the
hotel does not allow outside caterers to use their facilities.
Consequently, since OJP chose the Bonaventure Hotel as the Weed and
Seed Conference’s venue, the event planner had to use the hotel’s
caterer for the event.

       The event planner stated that food and beverage costs can be
used as leverage to obtain better deals with hotels when negotiating
their hosting contracts. For the Weed and Seed Conference, the event
planner said that in light of the amount of food and beverages, the
hotel offered lodging for attendees and conference meeting facilities at
either reduced rates or no cost. Since the meeting facilities and

      50
            Federal employees may receive reimbursement for meals incurred during
official travel according to a locality’s M&IE per diem rate established by GSA.

                                        43
lodging were acquired at reduced rates, the event planner said that
the food and beverage cost appears to constitute a disproportionate
percentage of the planning and hosting cost.

      In an effort to mitigate food and beverage charges, the Weed
and Seed event planner told us that it chose among the least
expensive items on the hotel menu. We reviewed the hotel’s catering
menu and confirmed that the event planner selected lower-priced or
mid-range menu options to serve during the conference’s two lunch
sessions. While typical of food and catering prices observed at large
hotels, many of the items served during the Weed and Seed
Conference were costly and appear extravagant. The following
highlights the food and beverages served at three of the conference
events.

     $53-Per-Person Lunch Buffet

      On the last day of the conference, CCDO invited 120 members of
the Strategy Development Training and Indian Country Working
Groups (Working Groups) to a workshop that featured a lunch buffet
costing over $6,000. With a list price of $41 per person, the lunch
buffet cost more than any of the other lunches provided to conference
attendees. Service charges and applicable sales taxes increased the
actual price of the Working Group lunch buffet from $41 to over $53
per person. The hotel’s catering menu shows that each member of
these Working Groups was served a choice of soups, a salad bar, one
chicken entrée, one beef entrée, and two desserts. Figure 6-A details
the lunch buffet menu.




                                 44
Figure 6-A
              WORKING GROUP LUNCH BUFFET




Source: Bonaventure Catering Menu, 2005




                                 45
      Networking Reception

     After the first full day of the conference, CCDO hosted a
networking reception and spent over $60,000 on food and beverages
for Weed and Seed Conference attendees, as shown in Table 6-3.

Table 6-3
                FOOD AND BEVERAGE COSTS OF
            WEED AND SEED NETWORKING RECEPTION
                       August 23, 2005
                                       List Price     Number        Total Cost
        Item Description                  ($)        Purchased         ($)
       “Stars and Stripes” Themed
                                             41.00     1,000             41,000
                          Reception
                 Large Cheese Tray          440.00       3                1,320
  Large Vegetable Crudités Display          365.00       3                1,095
    California Roll, Soy Sauce, and
                                            365.00       6                2,190
               Pickled Ginger Trays
    Roasted Vegetable Wrap Trays         165.00        6                   990
                    Bottles of Water        3.75      618                2,318
                                        Service Charge (20%)             9,782
                                                 Tax (8.25%)             4,842
                                                      TOTAL           $ 63,537
Source: OIG analysis of CCDO and external party planner documents

      According to the conference program, the networking reception
featured a speech on community and private industry partnership by
an executive from the Los Angeles Dodgers professional baseball
team. CCDO also used the 1-hour event to present awards for videos
produced by program partner sites and to announce Weed and Seed
poster contest winners. The event planner told us that food and
beverages were purchased for 1,000 of the nearly 1,500 conference
attendees in an effort to save funds and because not every conference
attendee was expected to attend the reception.

    Figure 6-B lists the types of food and beverages served at the
CCDO’s Weed and Seed networking reception.




                                       46
  Figure 6-B
              FOOD AND BEVERAGES PROVIDED
         AT WEED AND SEED NETWORKING RECEPTION




   Source: Bonaventure Catering Menu, 2005

      In addition to the above reception food items, 300 servings each
of cheeses, California rolls, vegetable crudités, and roasted vegetable
wraps were provided to the reception’s attendees.

       Although the FTR allows agencies to serve light refreshments at
conference events, we believe that the volume and type of food and
beverages served at the reception does not appear appropriate. As
previously discussed, OJP food and beverage policies prohibit food and
beverage expenses for amusement or social events. CCDO officials
told us that the reception provided essential information-sharing
opportunities concerning the overall purpose of the conference.
However, serving items associated with state fairs and amusement
parks, such as cotton candy, popcorn, caramel apples, ice cream, and
licorice, invariably increases the likelihood that the reception would be
considered a social event by attendees rather than directly related to
the objectives of the Weed and Seed Program.




                                    47
      CCDO Staff Meeting

       On the afternoon of the last day of the conference, CCDO held a
staff meeting for 30 of its employees at the nearby Millennium
Biltmore Hotel (Biltmore). Unlike the rest of the conference, which
was attended primarily by representatives of Weed and Seed program
grantees, this staff meeting was composed of only CCDO employees
traveling on per diem. As part of this meeting, CCDO paid for its
employees to be served a sandwich buffet lunch that cost $44 per
person and a themed “at-the-movies” snack consisting of candy,
popcorn, and soft drinks for about $25 per person. The food and
beverage cost of the afternoon meeting totaled over $2,100 for the 30
participants, or $69 per staff member.

       We asked CCDO officials why the staff meeting could not have
been scheduled back in Washington, D.C., instead of while employees
were in travel status. According to CCDO officials, conducting the staff
meeting “off location” provided CCDO employees a chance to exchange
perspectives of local Weed and Seed programs exhibited during the
conference. A CCDO official also told us that the conference occurred
after the busiest period of the CCDO work year, when staff had just
spent months reviewing, evaluating, and awarding grants for the next
fiscal year. According to CCDO officials, the timing of the conference,
coupled with the fact that all employees were present, provided CCDO
the best opportunity to have a staff meeting.

      Following our review of event planner records, an official with
OJP’s AMD contacted the event planner and obtained copies of the
Weed and Seed Conference’s food and beverage invoices. We
subsequently met with CCDO officials regarding the overall cost of the
meals and refreshments provided to conference attendees. During this
meeting, we inquired whether CCDO could have done anything to
reduce the $394,008 cost of food and beverages served at the Weed
and Seed Conference.

       According to one CCDO official, the Weed and Seed Conference
was the first large-scale event that this official had helped plan. Since
the conference, this CCDO official stated that they have learned that
contractors who plan events require different levels of interaction with
and oversight from sponsoring component officials. For example, not
all contractors are aware of the unique rules that apply to public funds.




                                   48
       Another official stated that since the August 2005 Weed and
Seed Conference, CCDO reviews the way meals and breaks are
provided to conference attendees. For example, a CCDO official said it
now tries not to incur a service charge if wait staff are not required at
an event. We asked whether these reviews are maintained at or
submitted to a central office within OJP. We were told that no single
office reviews food and beverage costs at OJP-sponsored events.

COPS National Conference

       The 2006 COPS National Conference was held at the Hilton
Washington Hotel in Washington, D.C. 51 Over 1,100 law enforcement
officials, educators, and community representatives – including over
110 DOJ employees – attended the 3-day conference that focused on
community policing law enforcement issues.

      The $274,546 spent on food and beverages constituted a third of
the total $823,105 hosting and planning cost of the conference. As
shown in Table 6-4, a total of 1,350 lunches, 3,433 continental
breakfasts, 5,884 beverages, a $60,000 networking reception, and two
afternoon break sessions were provided to conference attendees.
Applying the total food and beverage cost to each of the 1,102
conference attendees, COPS spent an average of $249 per person, or
$83 per day, on just food and beverages. The average conference
attendee received 2 breakfasts, a lunch, one reception, and an
assortment of light refreshments over the 3 days of the conference.
For comparison purposes, the GSA M&IE per diem rate for Washington,
D.C at the time was $64 per day for breakfast, lunch, and dinner.




      51
          COPS awarded a cooperative agreement to a consortium of policing
organizations to help plan the COPS National Conference.

                                       49
Table 6-4
        BREAKDOWN OF COPS NATIONAL CONFERENCE
               FOOD AND BEVERAGE COSTS
                  July 27 to 29, 2006
                                        List Price   Paid Price
                                        Per Unit      Per Unit
                                            or           or         Adjusted
                                         Serving     Serving*      Total Cost*
 Item Description         Number           ($)          ($)            ($)
Breakfasts
           Continental
                            3,433            20.90        24.67           84,692
            Breakfasts
Lunches
              Lunches       1,350            38.95        45.96           62,046
Beverages
       Cups of Coffee       4,560             3.09         3.64           16,598
      Bottles of Water       781              3.80         4.48            3,499
         Cans of Soda        543              3.80         4.48            2,433
Reception Costs
             Reception      1,000            42.75       50.45            50,450
   Swedish Meatballs         400              4.04        4.77             1,908
    Miniature Pastries       850              5.00        5.90             5,015
  Reception Staff Fee         8             300.00      300.00             2,400
   Juice, Punch, Iced
                            1,200             2.61         3.08            3,696
                  Tea
Snacks
       “The Big Chill”
                            1,200            14.25        16.81           20,172
       Themed Break
     “At the Stadium”
                            1,200            15.20        17.94           21,528
       Themed Break
               Cookies      24                3.83         4.52               109
                         TOTAL FOOD AND BEVERAGE COSTS                $274,546*
Source: OIG analysis of component and external party planner data
     * Total includes rounded figures due to 18-percent service charge applied to
        all items.

      Similar to our discussion of the food and beverages provided at
the Weed and Seed Conference, some of the food and beverage costs
associated with themed breaks and a networking reception at the
COPS National Conference were so expensive that they may not be
considered reasonable uses of appropriated funds. In addition, we
found that the method used by COPS to pay for conference food and
beverages resulted in unnecessary indirect costs.




                                       50
  Themed Break Sessions

        Attendees were provided two themed afternoon breaks during
  the 3-day conference. As shown in Figure 6-C, the themed break
  menus included coffee, tea, and soft drinks and a variety of ice cream
  desserts, hot dogs, warm pretzels, and popcorn snacks.

  Figure 6-C
          COPS NATIONAL CONFERENCE THEMED BREAKS



        Thursday, July 27, 2006                   Friday, July 28, 2006
            3:15 to 3:45 PM                          3:15 to 3:30 PM




 Note: “Attendants Required” means hotel
 staff (attendants) were required to serve
            themed break items.


Source: Hilton Event Order Form

        Each themed break cost approximately $17 per person and
  together cost COPS nearly $42,000.




                                             51
     Networking Reception

       The conference also had a “networking reception” that cost more
than $60,000, or $57 per attendee, for food and beverages. According
to the conference’s agenda, the purpose of the reception was to
provide attendees a “forum to network with [their] peers.” The
reception contained six designated “topic areas” where attendees could
meet and discuss: (1) Drugs and Crime, (2) School and Campus
Safety, (3) Community Policing Training, (4) Homeland Security,
(5) Anti-Gang Initiatives, and (6) Organizational Change. COPS
provided experts on each topic. Attendees were also given bookmarks
that listed relevant publications and resources for each designated
topic. Figure 6-D shows that the networking reception featured chef-
carved meats and penne pasta.

  Figure 6-D
                 COPS NETWORKING RECEPTION




            Source: Hilton Event Order Form



                                   52
      The reception also served conference attendees several hundred
Swedish meatballs and miniature pastries. With applicable service
charges, each meatball cost nearly $5, and each piece of pastry cost
almost $6. The reception also included four different cash bars.
Although attendees paid for their own alcoholic beverages, the
conference paid a $300 fee for each attendant, which included a
bartender and a cashier at each of the four stations, for an additional
$2,400 to staff the four cash bars.

     Financing Conference Food and Beverages

       COPS awarded a $525,000 cooperative agreement to the Police
Executive Research Forum (PERF) to plan and support the conference.
According to COPS officials, PERF was a member of the Community
Policing Consortium (Consortium) and acted as its “prime grantee,”
and therefore was responsible for administering contracts with other
Consortium member organizations.

      According to COPS officials, the Consortium served as a
“convening body” with COPS since 1994 and helped to provide law
enforcement training and technical assistance. The Consortium,
disbanded in 2006, was comprised of five member organizations:
PERF, the International Association of Chiefs of Police (IACP), the
National Sheriffs’ Association (NSA), the Police Foundation, and the
National Organization of Black Law Enforcement Executives (NOBLE).

      According to financial records provided by COPS, the projected
budget for the conference was over $800,000, which far exceeded the
amount of support provided by the $525,000 cooperative agreement.
However, PERF documents note that Consortium members IACP and
NSA received COPS awards for other projects prior to PERF’s $525,000
cooperative agreement. As shown in Table 6-5, COPS approved the
IACP, the NSA, and the Police Foundation to use certain funds
remaining in prior IACP and NSA awards to cover the conference’s food
and beverage costs.




                                  53
        Table 6-5
        CONSORTIUM FOOD AND BEVERAGE PAYMENTS

                                          Amount Agreed To
                                           Support for Food
              Consortium Member           and Beverages ($)
             International Association
                                                       90,000
                 of Chiefs of Police
                 National Sheriffs’
                                                       94,546
                    Association
                 Police Foundation                    90,000
                                  TOTAL            $274,546
          Source: COPS and Consortium conference planning
                  documents

       Our review of the Consortium’s method to pay for food and
beverages found that member organizations charged nearly $104,000
in indirect fees to pay the conference’s food and beverage bill.

       We reviewed copies of checks and invoices of separate
Consortium member organizations to determine how they transferred
funds from different COPS awards to pay for the conference’s food and
beverage costs. Although the Police Foundation was to provide
$90,000 to finance food and beverages, the Police Foundation did not
use its own grant funds to cover this expense. Instead, as shown in
Figure 6-E, the IACP, NSA, and the Police Foundation issued five
different checks, three made out to PERF as the prime grantee and two
made out to the Police Foundation. After receiving one check each
from the IACP and the NSA, the Police Foundation sent a check for
$90,000 to PERF.




                                   54
          Figure 6-E
          CONSORTIUM ORGANIZATION CHECKS USED
                 TO PAY FOOD AND BEVERAGES




           Source: OIG analysis of COPS and consortium documents

      The convoluted process used by the consortium to pay food and
beverage costs meant that the IACP paid a total of $167,000, the NSA
paid $143,546, and Police Foundation received a total of $126,000
from the IACP and the NSA to only pay $90,000 to PERF as the prime
grantee. The staggered payment process used by the consortium
provided the Police Foundation with an extra $36,000 in IACP and NSA
COPS awards.

       Since the Consortium was not operational during our audit, we
relied on COPS officials to explain why the IACP and NSA provided
COPS funds to the Police Foundation instead of directly to the prime
grantee, PERF, to pay for conference food and beverage costs. COPS
officials offered records showing that the IACP and NSA established
separate agreements with the Police Foundation to provide support
staff for the COPS National Conference. Although these agreements
may demonstrate that the Police Foundation had a role in supporting


                                   55
the conference, they do not address the Police Foundation’s role in
paying food and beverage costs.

       In addition to the $36,000 received by the Police Foundation, we
found that the IACP and the NSA also charged indirect costs to COPS
awards resulting from the four checks used to pay food and beverage
costs. 52 Using approved budgets and COPS award drawdown activity,
we calculated the amount of indirect charges applied by the IACP and
the NSA for each check written to finance conference food and
beverages, as shown in Table 6-6.

  Table 6-6
                 INDIRECT COSTS TO PAY FOR COPS
            NATIONAL CONFERENCE FOOD AND BEVERAGES

                                                      Calculated      Total
                                            Face       Indirect     Amount of
        Check                             Amount         Cost         COPS
    Identification                        of Check     Charged       Funding
       Number             Recipient          ($)          ($)          ($)
   IACP
       Check 1       Police Foundation       77,000              0*       77,000
       Check 2       PERF                    90,000         32,886       122,886
                        Subtotal IACP 167,000              32,886       199,886
   NSA
       Check 3       Police Foundation       49,000          7,731        56,731
       Check 4       PERF                    94,546         27,276       121,822
                         Subtotal NSA 143,546              35,007       178,553
                         TOTAL COSTS $310,546            $67,893      $378,439
   Sources: OIG analysis of award drawdown information and COPS documents
          * Using drawdown figures, the IACP did not appear to charge
             indirect rates to the $77,000 check sent to the Police Foundation.

       Although indirect cost rates charged by the IACP and the NSA to
their respective awards complied with indirect cost rates approved by
COPS, these organizations drew down $378,439 from their respective
COPS awards and issued four checks totaling only $310,546. 53 In
effect, it appears as though the IACP and NSA charged COPS a total of
$67,893 to issue the four checks which were ultimately used by PERF
to pay the food and beverage bill.
       52
          Since these indirect and overhead amounts were paid for with COPS funds
in support of the conference, we consider these indirect costs charged by consortium
members to be part of the conference’s overall cost.
       53
           The $67,893 amount does not include the $36,000 received by
the Police Foundation.

                                        56
       We asked COPS officials if funds could have been reprogrammed
out of the award and transferred directly to PERF, which as the
Consortium’s prime grantee for the conference, was responsible for
administering contracts. COPS told us that its appropriation prohibits
reprogramming prior fiscal year award balances to fund current
activities. Consequently, the only way COPS believed it could finance
the conference with prior year awards provided to consortium
members was to have the consortium members themselves issue
checks from their respective COPS awards. Since these organizations
were actually the ones financing the consortium, they could then
charge approved indirect cost rates against their award.

       We reviewed COPS appropriation legislation for FY 2005, the
year in which the funds were provided to award the $525,000
cooperative agreement to the consortium. 54 The legislation prohibits
COPS from reprogramming prior year funds “unless the Appropriations
Committees of both Houses of Congress are notified 15 days in
advance of such reprogramming of funds.” According to COPS
officials, this provision prevented them from reprogramming the funds
remaining in the accounts of consortium members from prior fiscal
years to FY 2006 to pay for the conference. However, nothing in the
law prohibited COPS from reprogramming FY 2005 funding. Rather,
the cited legislation merely required COPS to provide the requisite
notice to Congress before doing so.

      Considering both the total $67,893 charged by the IACP and the
NSA and the $36,000 extra received by the Police Foundation, we
believe that COPS could have achieved a savings of nearly $104,000
by reprogramming funds to PERF. COPS should have notified
Congress about its plan to transfer prior fiscal year funds, thereby
eliminating the indirect costs charged by consortium member
organizations.




     54
          Pub. L. No. 108-447, 118 Stat. 2809, 2913 (2005).

                                        57
FBI Polygraph Conference

       Each year, the FBI’s Security Division sponsors a week-long
polygraph training conference. The 2005 Polygraph Conference was
held at the Marriott City Center in Minneapolis, Minnesota, and was
attended by nearly 100 polygraph examiners and staff. As an internal
training conference, the Polygraph Conference was attended solely by
federal employees in contrast to the externally oriented conferences
sponsored by CCDO and COPS. During the conference, the Security
Division provided light refreshments and no full meals to attendees.

      As shown in Table 6-7, food and refreshments provided at the
conference included bagels, muffins, cookies, soda, tea, coffee, and
juices totaling $7,468, or $15 per attendee per day.

Table 6-7
                 FOOD AND BEVERAGE COSTS AT THE
                   FBI POLYGRAPH CONFERENCE
                      June 26 to July 1, 2005
                                         List Price     Paid
                                          Per Unit    Price Per
                                             or        Unit or       Adjusted
                                          Serving     Serving*      Total Cost*
   Item Description       Number            ($)          ($)            ($)
 Snacks
                  Cookies   360        2.17     2.86                       1,029
          Muffins-Bagels    960        2.17     2.86                       2,745
 Beverages
          Cups of Coffee    960        1.80     2.38                      2,284
         Bottles of Water    60        2.25     2.97                        178
            Cans of Soda    183        2.25     2.97                        543
  Juice, Punch, Iced Tea    190        2.75     3.63                        689
                      TOTAL FOOD AND BEVERAGE COSTS                      $7,468
Source: OIG analysis of FBI conference documents
* Figures adjusted to account for rounding due to service charge and sales taxes
   applied to individual items.




                                       58
FBI Cambodia Conference

       In March 2006, 46 legal attachés and other federal officials
attended the FBI Cambodia Conference in Phnom Penh. Similar to the
FBI Polygraph Conference, the Cambodia Conference was an internal
training event oriented primarily to a federal audience. The FBI’s
Office of International Operations (OIO) arranged to have a hotel
provide beverages and light snacks to conference attendees. OIO
hosted a “welcome reception” for the attendees on the first day and a
“liaison dinner” for attendees and high-level representatives from the
Cambodian National Police (CNP) at a restaurant in Phnom Penh. The
OIO also paid for a conference meeting at the residence of the U.S.
Ambassador as detailed in Table 6-8.

Table 6-8
              BREAKDOWN OF FOOD AND BEVERAGE
            COSTS AT THE FBI CAMBODIA CONFERENCE
                      March 12 to 17, 2006
                                                  Paid
                                                Price Per
                                                 Unit or
                                                 Serving    Total Cost
             Description             Number        ($)         ($)
Welcome Reception
Welcome Reception Food Items               36      25.00           900
Welcome Reception Drinks                   36      11.00           396
Reception Room                              1     350.00           350
                            Welcome Reception Subtotal          $1,646
Ambassador's Function                       1     482.36           482
U.S. Embassy Breaks
Coffee/Tea (Unit)                        405        1.50           608
CNP Liaison Dinner
Food Platters                               5     238.00          1190
Beverage Service                            1     100.00           100
Individual Beverages                       69       2.80           193
                             CNP Liaison Dinner Subtotal        $1,483
                           FOOD AND BEVERAGE TOTAL              $4,219
 Source: OIG analysis of component data




                                      59
       At the time of the FBI Cambodia Conference, the M&IE per diem
rate for Phnom Penh was $72 per person. Using the figures shown in
Table 6-8, the welcome reception cost about $42 per attendee, and
the liaison dinner cost $21 per person. We asked the FBI for an
explanation why these functions were part of its Cambodia Conference.
FBI officials said that the conference’s welcome reception was used to
provide attendees an opportunity to meet presenters from the FBI, the
Department of Defense, and the Central Intelligence Agency.
According to an OIO official, the liaison dinner served to both foster
cooperation between the FBI and the CNP and discuss common
regional law enforcement opportunities.

Per Diem Meal Deductions

       According to 5 U.S.C. § 5702 (2006), federal agencies may use
appropriated funds to pay subsistence costs of employees traveling on
official business. To implement this rule, GSA annually establishes
M&IE per diem rates to compensate federal employees on travel status
the cost of meals during official travel. According to the FTR, federal
travelers must adjust their per diem M&IE reimbursement requests to
deduct for meals furnished by the government during an official
function, such as a government-sponsored conference.

      Accordingly, the FTR provides a pre-determined amount that a
traveler should deduct for each meal provided by the government. We
selected a judgmental sample of 253 travel vouchers submitted by
DOJ employees who attended the reviewed conferences to see if
appropriate deductions were made for each meal provided by the
government. As shown in Table 6-9, the amount that a federal
traveler should deduct when provided a meal by the government
depends on the total amount of the daily M&IE reimbursement rate. 55




       55
          In addition to meal costs, the M&IE reimbursement rate also includes a set
amount for “incidentals” expenses that a federal traveler can claim each day. For FY
2006, this incidentals expense was $3 per day.

                                        60
      Table 6-9
          M&IE DEDUCTIONS FOR MEALS PROVIDED AT
                   GOVERNMENT EXPENSE
      For FY 2005:
       Total M&IE        $31     $35          $39   $43       $47     $51
       Deductions per provided meal:
       Breakfast            6        7          8      9        9       10
       Lunch                6        7          8      9       11       12
       Dinner              16     18           20     22       24       26

      For FY 2006:
       Total M&IE        $39     $44   $49          $54       $59     $64
       Deductions per provided meal:
       Breakfast            7        8    9           10       11       12
       Lunch               11     12     13           15       16       18
       Dinner              18     21     24           26       29       31
      Source: FTR § 301-11.18 and GSA Web site

      For example, government employees attending the FY 2005 OVC
National Symposium were permitted $43 per day for M&IE. During the
5-day conference, each attendee was provided 5 breakfasts ($9 times
5 days or $45), a working lunch ($9), and a dinner ($22). Therefore,
the total proper per diem deduction in a federal employee’s
reimbursement request for the entire event would be $76.

      Table 6-10 shows the results of our travel voucher review. We
analyzed vouchers to determine whether the M&IE reimbursement was
adjusted to reflect meals provided at 8 of the 10 reviewed
conferences. 56 Of the 253 vouchers examined, we found that 62
properly deducted meals, 41 deducted some but not all meals, while
150 failed to deduct any meals at all.




      56
          Two of the 10 conferences were not included in our meal deduction
analysis. The FBI Polygraph Conference did not provide meals to its conference
attendees, and attendees at the OJJDP National Conference, held in Washington,
D.C., were not on conference-related travel.

                                         61
Table 6-10
             DOJ TRAVEL VOUCHER TESTING RESULTS

                         Number
                            of      All Meals
                         Vouchers   Properly    Some Meals   No Meals
    Conference Name       Tested    Deducted     Deducted    Deducted
    OVC National
                            54           1          11          42
    Symposium
    Weed and Seed
                            22           2          13          7
    Conference
    NIJ Technology
                            13           0          3           10
    Conference
    FBI Cambodia
                            9            6          0           3
    Conference
    PSN National
                            94           52         2           40
    Conference
    COPS National
                            2            0          0           2
    Conference
    FBI ITEC
                            27           1          0           26
    Conference
    CCDO LEC
                            32           0          12          20
    Conference
                 TOTAL     253         62          41          150




   Source: OIG analysis of component vouchers




                                    62
      When federal attendees do not deduct meals provided at
government expense, and when component managers do not
systematically review vouchers to ensure that such deductions are
made, the government effectively pays for the meal twice, once when
the meal is provided at the conference and again when employees
receive reimbursement based on the submitted charges in their travel
voucher.

Conclusion

      Federal agencies have considerable discretion in how much they
choose to spend on food and beverages for a conference. Both the
Weed and Seed Conference and COPS National Conference used hotel
catering services to provide costly food and beverage items to
conference attendees. While the price of the food and beverages may
have been standard and allowable – especially considering that large
hotels served as venues for the events – the sheer volume of food and
beverages purchased resulted in CCDO and COPS spending,
respectively, an average of $64 and $83 on food and beverages each
day for each person. For comparison purposes, the GSA M&IE rate for
the Weed and Seed Conference was only $51 per day, while the M&IE
for the COPS National Conference’s was $64.

       For example, the Weed and Seed Conference spent $60,000 on
cotton candy, popcorn, caramel apples, ice cream, and licorice for a
reception held to announce video and poster award winners. We
believe that serving such items at an event gives the appearance that
the reception was intended more for social rather than purposes
directly related to the objectives of the Weed and Seed Program.
Similarly, the COPS National Conference’s networking reception cost
$60,000 and featured four cash bar stations, carved beef and turkey,
and penne pasta.

       During our review of food and beverage costs, we examined
planning files and found no written evidence explaining or expressly
justifying the need to offer conference attendees full meals and
networking receptions. Although OJP has developed its own policy
regarding the proper provision of food and beverages at its
conferences, we were not provided with evidence that any mechanism
exists within OJP to ensure that its food and beverage rules are
consistently followed or even provided to contracted conference
planners.



                                 63
      In addition, our examination of DOJ travel vouchers showed that
more than 75 percent of the vouchers examined claimed
reimbursement for the cost of meals provided to them at government
expense at these conferences. When DOJ attendees do not deduct
such meals, the government effectively pays for the same meal twice.
The high rate of improper meal deduction evidenced by our sample
shows that adequate controls have not been implemented to ensure
that employees who prepare and managers who review travel
vouchers deduct the appropriate cost of government provided meals
from the M&IE rate.

       We believe that federal conference planners have a responsibility
to critically assess and specifically justify serving food and beverages
at conference’s paid for by public funds. To carry out this
responsibility, DOJ conference planners require clear and consistent
guidelines to use when planning conferences where food and
beverages will be served. Since appropriated monies are used to pay
for food and beverage costs of attendees, we believe that these
guidelines should provide oversight of and procedures for justifying
such costs.

Recommendations

We recommend that JMD:

7)    Develop and implement general food and beverage policies that
      DOJ conference planners can use when planning events.

8)    Instruct DOJ component Chief Financial Officers to develop and
      implement procedures that ensure employees deduct the
      appropriate amount from the M&IE rate for government-provided
      meals from their submitted travel vouchers.

9)    Ensure components that sponsor conferences with costly food
      and beverages develop a mechanism to adequately document
      reasons and approval for food and beverage costs.

We recommend that OJP:

10)   Develop procedures that ensure compliance with existing policies
      governing the reasonableness of conference food and beverage
      costs.



                                  64
We recommend that COPS:

11)   Develop procedures that ensure compliance with existing policies
      governing the reasonableness of conference food and beverage
      costs.

12)   Develop and implement policies to reprogram unused award
      funds in ways that mitigate unnecessary indirect costs.

13)   Account for the $103,893 in COPS award funds passed to a
      consortium member organization to pay for food and beverage
      costs at the 2006 COPS National Conference.




                                 65
Chapter 7: AUDIO-VISUAL EQUIPMENT AND
           SERVICES
      Similar to rules governing food and beverage costs, federal
agencies have considerable discretion in how much they choose to
spend on audio and visual equipment and services at government-
sponsored conferences. Components and event planners spent
$762,897 on audio-visual equipment and services for the 10
conferences we examined, making audio-visuals the third largest
category of conference expenditures.

      Audio-visual equipment includes microphones, projectors,
screens, computers, lights, stages, and sound systems. This chapter
reviews the nearly $300,000 cost associated with providing audio-
visual equipment and technical services for three conferences, as
shown in Table 7-1. 57

Table 7-1
               AUDIO-VISUAL COSTS BY CONFERENCE

                             PSN National      OVC National        FBI ITEC
                              Conference        Conference        Conference
      Description                 ($)               ($)               ($)
 Equipment Rentals
        Plenary Sessions             38,977             37,280             4,253
      Breakout Sessions              27,910             45,594             4,335
           Other Support              3,935                819               525
 Labor and Other Costs
             Direct Labor            59,889            53,795              2,100
   Other Costs or Offsets            12,758            11,250           (3,466)*
                  TOTAL           $143,469          $148,738             $7,747
       Number of                 1,330              787               306
       Registrants
 Source: OIG analysis of conference financial records
      * The FBI ITEC Conference received a discount averaging 30 percent of the
         audio-visual cost, which was applied to certain equipment and labor costs.

      BJA held the 2006 PSN National Conference in Denver, Colorado,
in May 2006 and issued a contract task order to an event planner to
provide planning and logistical support. In turn, the event planner
hired an audio-visual firm (PSN subcontractor) to provide equipment
and technical assistance during the conference. The total cost of
audio-visual support totaled $143,469 for the PSN National
Conference.

      57
          Appendix I outlines the methodology used to choose conferences to review
their associated audio-visual costs.

                                        66
       OVC held its National Symposium for federal, tribal, and military
criminal justice officials at the Atlanta Hilton in March 2005. Like PSN,
OVC issued a contract task order to an event planner for planning and
logistical support. As part of the contract, the event planner engaged
the services of an audio-visual firm (OVC subcontractor) to provide
equipment and technical assistance. The total cost of audio-visual
support for the OVC National Symposium totaled $148,738.

      The FBI’s ITOD sponsored its 2006 ITEC conference at the Hyatt
Regency in San Antonio, Texas. Unlike BJA or OVC, the FBI did not
use a third-party event planner for the ITEC conference. Instead, the
FBI paid the venue’s in-house audio-visual firm to provide audio-visual
equipment or technical assistance for the conference. Because the FBI
used the services of the in-house audio-visual firm, it received a
discount of $3,466 or nearly 30 percent on the total cost of the
equipment and services provided.

      Using conference planning records, agendas, specifications, and
audio-visual invoices from each event’s sponsoring component and
event planner, we compared the type and amount of audio-visual
equipment and support obtained for each of the three conferences
incurred audio-visual costs associated with conducting plenary
sessions attended by all conference attendees, several breakout
sessions, and labor and travel costs for audio-visual firm employees.

Equipment Costs

      The plenary sessions for each conference were held in large
rooms and used audio-visual equipment to allow each attendee to hear
and see presentations and speeches. Breakout sessions were held in
separate rooms at each venue and required separate audio-visual
equipment and technical support. The following sections review the
audio-visual costs incurred for the plenary and breakout sessions of
the three conferences we examined in detail.




                                   67
PSN National Conference

       PSN spent $38,977 to rent audio-visual equipment for the three
plenary sessions held in the main ballroom of the Denver Convention
Center. Each session was attended by over 1,200 people. The PSN
subcontractor provided a large-venue audio-visual system that
included 14 microphones, 5 Digital Light Processing® projectors and
accompanying screens, a 42-inch flat-screen monitor, a complete
lighting package, 9 smaller monitors, and stages with black drapery
backgrounds. As part of its agreement with the event planner, the
PSN subcontractor also filmed each plenary session.

      Figure 7-A shows that the plenary session stage used three large
screens to project and magnify a video image of the speakers. Two
rectangular screens were placed on the far left and right side of the
stage. A third screen was placed in the center, and two images were
projected on either side. Depending on the size, projector, and
drapery, rental of each screen cost between $2,700 to $2,900 for the
event.

Figure 7-A
             MOCK-UP OF PSN NATIONAL CONFERENCE
                   PLENARY SESSION STAGE




Source: PSN event planner

      Considering the dimensions of the 1,300-person ballroom, the
event planner told us that it was standard to have screens at each end
and one in the center. Figure 7-B is a diagram, provided by the event
planner, showing the stage and the seating layout of the plenary
session.




                                  68
Figure 7-B
       STAGE AND SEATING LAYOUT FOR PSN NATIONAL
              CONFERENCE PLENARY SESSIONS




Source: PSN event planner

      As shown above, 10 attendees were seated at each of the 130
tables. According to the event planner, the number of attendees, the
seating configuration, and the dimensions of the ballroom required the
use of three screens during the plenary session.

      The PSN National Conference included a total of 46 breakout
sessions during the 4-day conference. As shown in Table 7-2, each of
the breakout session rooms used a projector, stand, screen, a laptop,
four microphones, a sound mixer, a laser-pointer, and a remote
control. The daily rate for the audio-visual equipment in each
breakout session room was $605, for a total cost of $27,910 for the
conference. 58




       58
           According to invoices, two breakout sessions rented a dual Video Home
System (VHS) and Digital Versatile Disc (DVD) media player, which cost an
additional $80.

                                        69
    Table 7-2
        PSN BREAKOUT SESSION AUDIO-VISUAL COSTS

                                             Number Daily          Total
                                                of      Rate       Cost
                   Description                Rentals    ($)        ($)
     Computer screen projectors                 46         200       9,200
     Projection screens                         46           15        690
     Laptop computers                           46         130       5,980
     Flipcharts                                 46           22      1,012
     Wired Microphone (2 at each session)       92           10        920
     Wireless Microphone (2 at each session)    92           60      5,520
     6 Channel Microphone Mixers                46           20        920
     Portable Projection Stands                 46            8        368
     Laser Pointers                             46           25      1,150
     Wireless Remote Controls                   46           45      2,070
     VHS-DVD Players                             2           40         80
                TOTAL FOR BREAKOUT SESSION EQUIPMENT              $27,910
    Source: Audio-visual subcontractor data and OIG analysis

       Wireless microphones cost $50 more to rent per day than wired
microphones. We asked the event planner the reason for incurring an
additional $4,600 to rent 92 wireless microphones. The event planner
told us that the audiovisual package for each room needed to be
flexible to accommodate the needs of each speaker. The ability to
move about the room freely was important to some presenters and a
wired microphone would not be of assistance in these cases.

       The PSN subcontractor also outfitted audio-visual and computer
equipment for seven rooms used by conference administrators and
staff, at a cost of $3,935. These spaces also contained backup
equipment that could be used if equipment failed during a breakout or
plenary session.

OVC National Symposium

      The OVC spent $37,280 to rent audio-visual equipment for two
plenary sessions and one working dinner for its nearly 800 attendees.
The OVC event planner provided a large-venue audio-visual system
similar to the one used by PSN that included 14 microphones, 4
projectors and accompanying screens, 5 mid-sized flat-screen
monitors, a complete lighting package, and stages with black drapery
backgrounds. As part of its agreement with the event planner, the
OVC subcontractor also filmed each plenary session.



                                      70
      Figure 7-C shows the main stage as it appeared before OVC
National Symposium’s dinner session.

Figure 7-C
   DINNER AND STAGE AT THE OVC NATIONAL SYMPOSIUM




Source: OVC event planner

      The OVC spent $45,594 to provide audio-visual equipment for
201 separate breakout session meetings held in 90 rooms. For these
90 breakout rooms, the OVC subcontractor provided a package of
audiovisual equipment that included computer projectors, laptop
computers, flipcharts, wired and wireless microphones, and other
equipment.

      As part of its agreement with the event planner, the OVC
subcontractor agreed to offer a discount rate on certain breakout
session equipment rentals. Generally, the discount rate applied to
equipment rented for the full five days of the conference. On the
fourth day, certain breakout equipment was charged only about 30
percent of the daily rate, and on the fifth day the breakout equipment
rental charge was waived. Once applied to the bill, the discount meant
that although OVC rented 90 portable projectors (one for each
breakout session), it incurred the normal daily rate for only 63

                                 71
projectors. With this discount, we calculated that the audio-visual
equipment rate incurred by each breakout session room averaged
$507.

FBI ITEC Conference

      The FBI spent approximately $3,000 to rent audio visual
equipment and services for two plenary sessions for nearly 300
attendees. The equipment included three microphones, one screen, an
LCD monitor, connecting equipment, remote control, and draperies.
The in-house audio-visual firm also filmed these sessions.

       Using discounted rates, the FBI spent another $3,000 to rent
audio-visual equipment for 25 separate breakout sessions held over
the 4-day event. In addition to the equipment rented for each
breakout session, the FBI used its own laptops, projectors, flip-chart
pads, and cables which reduced costs associated with the breakout
sessions. According to invoices for the event, the FBI also received a
30 percent discount on equipment because it booked the audio-visual
firm’s services 30 days in advance.

Labor and Other Costs

      Along with equipment rental fees, each of the three conferences
incurred costs resulting from labor provided to set up and operate
audio-visual equipment. This section reviews the labor costs
associated with providing audio-visual support for each event.

       PSN spent $59,889 on labor associated with providing audio-
visual support. Our review of the audio-visual subcontract and
associated invoices found that the event planner hired a
communications consultant, show manager, technical directors,
lighting directors, audio-visual technicians, camera operators, audio
assistants, and other professionals. These individuals charged 1,079
direct labor hours to set up, stage, and operate rented audio-visual
equipment during the conference and $12,758 in non-labor expenses
to pay for equipment delivery fees and employee travel expenses.

      The OVC spent $53,795 on subcontractor audio-visual technical
assistance. The OVC subcontractor used 31 technicians and staff to
provide this support. These workers billed a total of 1,032 hours of
labor during the conference and charged $11,250 in non-labor
expenses to pay for equipment delivery fees and employee travel
expenses.

                                  72
      Applying the audio-visual discount, the in-house firm at the FBI
ITEC Conference charged a total of $1,470 for 34 hours of audio-visual
labor. The in-house firm helped the FBI set up each breakout session
and provided technical assistance for the ITEC Conference’s plenary
sessions.

      To determine whether the audio-visual rates were relative to
each other, we calculated and compared the average audio-visual
assistance hourly rate for each conference as shown in Table 7-3.

  Table 7-3
   AVERAGE AUDIO-VISUAL HOURLY DIRECT LABOR RATES

                                                   Total
                                                  Amount          Average
                                   Number         Charged         Per Hour
       Conference Name             of Hours         ($)           Rate ($)
   PSN National Conference           1,079            59,889             56
   OVC National Symposium            1,032            53,795             52
   FBI ITEC Conference                 34             1,470*             43
  Source: OIG analysis of direct labor audio-visual costs
       * Applies 30 percent discount uniformly to $2,100 subtotal labor cost.

     As Table 7-3 shows, the average hourly labor rate for audio-visual
support fell between $56 and $43 per hour. Although the hourly rate
for the FBI ITEC Conference was the lowest, we noted that the FBI
used its own employees to provide most of the audio-visual technical
support for the event, resulting in only 34 hours of direct audio-visual
labor provided by non-FBI employees.

      The event planners for both PSN and OVC conferences told us
that they required extensive audio-visual technical assistance at their
events given the complexity of the equipment. We were also told that
the rates charged by the respective audio-visual subcontractors were
generally less than the average hourly event planner rate. Further,
event planners told us that the presentation directors and technicians
helped to minimize technical problems with overhead presentations
and allowed for smoother transitions between different speakers.




                                      73
Conclusion

      For the three conferences examined, we reviewed and compared
the cost of the items rented and the services provided. We found that
although expensive, the audio-visual equipment costs were allowable
given the considerable discretion federal agencies have regarding how
much to spend on audio and visual equipment and services. Although
audio-visual equipment and services comprised the third largest
category of conference expenditures, our review showed that
conference sponsors and event planners can achieve cost savings by
bargaining for services and equipment rentals with audio-visual
subcontracting firms. The OVC subcontractor provided the National
Symposium a discount rate on equipment rentals during the last two
days of the conference. The FBI received nearly a 30 percent discount
from its total audio-visual bill by booking the firm’s services over
30 days in advance. We believe that obtaining such discount rates for
audio-visual equipment constitutes a conference planning best
practice.




                                 74
Chapter 8: REGISTRATION FEES

      As discussed in Chapters 2 and 5, we found that OJP event
planners for the OJJDP National Conference and the NIJ Technology
Conference solicited and retained registration fees from conference
attendees and vendors. According to 31 U.S.C. § 3302(b), an official
or agent of the government receiving funds “from any source shall
deposit the money in the Treasury as soon as practicable without any
deduction for any charge or claim.” The rationale underlying this rule,
also known as the miscellaneous receipts statute, is that in order to
maintain Congress’s “power of the purse,” an agency should not
augment its appropriations from sources outside the government
without statutory authority.

Analysis

       In March 2005, the GAO, applying § 3302(b), held that neither
federal agencies nor contractors acting on their behalf may charge and
retain conference fees without specific statutory authority to do so. In
light of this ruling, we considered the decision to charge conference
fees in connection with the OJJDP and NIJ conferences. We concluded
that, in the absence of specific statutory authority, outside entities
retained by OJP should not charge conference fees in those cases
where they have been retained primarily to provide conference
planning services.

OJJDP National Conference

       As discussed above, OJJDP originally entered into a contract with
an event planner to provide conference planning services for the OJJDP
National Conference. Thereafter, OJP and the event planner entered
into a cooperative agreement pursuant to which these planning
activities would continue.

       An attachment to the application for the cooperative agreement
indicated that the event planner would offset the expenses associated
with providing meals and refreshments by charging registration fees.
The amount charged to exhibitors ranged from $300 for a tabletop
display to $1,000 for an exhibitor package. Attendee fees for the
conference ranged from a high of $525, noted as a late registration, to
a low “discounted rate” of $225. Some attendees, such as federal
officials and presenters, received complimentary registrations, while


                                  75
the event planner offered $100-a-day registration fees to attendees
who could not attend the entire conference.

      According to the event planner’s records, the fees collected from
the conference totaled $505,657. We asked event planner officials
how these fees were applied, and they confirmed that the collected
monies were used to pay for food and beverages provided to
attendees at the conference.

     As noted above, OJJDP first entered into a contract with the
planner and thereafter switched to a cooperative agreement. The
Federal Grant and Cooperative Agreements Act of 1977,
31 U.S.C. § 6305, directs executive agencies to use cooperative
agreements to reflect the relationship between the federal government
and another entity when:

       (1)    the principal purpose of the relationship is to transfer a
              thing of value to the . . . recipient to carry out a public
              purpose . . . authorized by law . . . instead of acquiring
              property or services for the direct benefit or use of the . . .
              government; and

       (2)    substantial involvement is expected between the executive
              agency and the . . . recipient when carrying out the
              activity contemplated in the agreement.

By contrast, executive agencies are directed to use contracts when
“the principal purpose is to acquire . . . property or services for the
direct benefit or use of the . . . government.” Id. at § 6303. Pursuant
to DOJ regulations, such as 28 C.F.R. § 70.24, non-profit organizations
that enter into cooperative agreements with the Department may
retain program income earned during the project period. 59

      We inquired as to why OJJDP entered into a cooperative
agreement with the conference planner when a contract for such
services was already in place. According to conference planning
documents, OJP officials believed that the event planner would be
prohibited from charging conference fees if they proceeded under the


       59
          This provision is part of the Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and other
Non-Profit Organizations. It does not apply to agreements with for-profit
corporations such as the event planner for the OJJDP conference.


                                        76
contract. 60 By opting for a cooperative agreement instead, OJP
believed that it would be permissible for the event planner to charge
and retain registration fees as program income.

      We believe there are two problems with OJP’s approach. First, it
does not appear that a cooperative agreement was the proper vehicle
for OJJDP to use in this case. As is evident from the choice of a
contract as the original procurement vehicle, the primary purpose of
the agreement between OJJDP and the conference planner was for
OJJDP to acquire conference planning services. As discussed above, a
contract is the proper vehicle when federal agencies are securing such
services for their use.

      Second, even if a cooperative agreement would have been
appropriate in these circumstances, the regulations relating to
program income do not apply to agreements with for-profit entities like
the event planner used in the OJJDP conference.

       Accordingly, we believe that absent specific statutory authority
to charge conference fees, it was inconsistent with the miscellaneous
receipts statute for the OJJDP conference planner to charge and retain
registration fees. In response to questions from the OIG, OJP has not
identified any such statutory authority.

NIJ Technology Conference

      In September 2005, NIJ entered into a cooperative agreement
with a non-profit entity related to the technology conference. As part
of the agreement, the non-profit was to provide planning and other
services for the technology conference. The agreement provided that
the event planner would collect anticipated program income generated
by charging fees to conference exhibitors and attendees.

      The Statement of Work attached to the cooperative agreement
indicated that the NIJ event planner would consult with NIJ and DHS to
establish the conference’s registration fee schedule. Once collected,
the registration fees would be used to offset conference costs,
including providing attendees “two breakfasts, two lunches, numerous
breaks, and access to all sessions and special events.” The fee
charged to rent a booth in the conference’s exhibition hall ranged from


      60
         This document, dated August 9, 2005, suggests that OJP was aware of the
GAO decision and its potential implications for the OJJDP conference.


                                      77
$1,300 for government and non-profit exhibitors to $1,800 for private
industry exhibitors. Attendee fees for the conference ranged from a
high of $550 for private industry attendees to a $225 special
registration fee. Speakers and staff received complimentary
registrations.

       Summary financial records indicated that the NIJ event planner
collected $411,914 in attendee and exhibitor fees. We asked NIJ
event planner officials how the revenue was applied to offset
conference costs. An official with the NIJ event planner told us that
the collected registration revenue offset the general cost of the
Technology Conference and was not applied against any specific type
or category of conference cost.

      In light of the March 2005 GAO decision concerning conference
registration fees, we asked OJP officials whether NIJ had statutory
authority to collect fees in connection with the technology conference.
According to OJP, such authority was not required. OJP reasoned that
because the event planner in this case provided more than just pure
planning services, a cooperative agreement was the appropriate
funding vehicle and the fees collected were allowable program income
under that agreement. Specifically, OJP noted that in addition to
purely logistical support, the NIJ conference planner also performed
such programmatic tasks as identifying possible participants and
coordinating among the sponsoring government agencies. 61

      We believe that whether it was appropriate to charge registration
fees in connection with the NIJ conference is a close question. We
recognize that cooperative agreements may be appropriate funding
vehicles in cases where OJP is transferring funds to a non-profit entity
primarily to permit that entity to carry out a programmatic function of
OJP. We also recognize that the governing regulations permit the
retention of program income when such agreements are utilized.
However, we believe OJP must ensure that cooperative agreements
are not utilized inappropriately as a means of avoiding the strictures of
the miscellaneous receipts statute. Accordingly, we recommend that
OJP develop and implement clear guidance outlining the specific
circumstances under which event planners retained to assist with OJP
conferences may charge and retain conference fees.




      61
          For purposes of this review, programmatic support means a service
designed to achieve the award or agreement’s mission or objectives.

                                       78
Conclusion

      Each conference can present unique circumstances that make
consistent application of the miscellaneous receipts statute difficult.
Because OJP is a sponsor of many conferences each year, we
recommend that OJP develop and implement policies and procedures
to ensure compliance with the statute. We believe these policies
should prohibit the charging and retaining of registration fees by
conference planners in the absence of specific statutory authority
when the primary purpose of the transfer of OJP funds is to procure
event planning services for an OJP-sponsored conference.

Recommendation

We recommend that OJP:

14)   Develop and implement policies and procedures to ensure
      compliance with the miscellaneous receipts statute.




                                   79
          STATEMENT ON INTERNAL CONTROLS

      In planning and performing this audit of DOJ conference
expenditures, we considered the internal controls of DOJ and its
various components, including the FBI, DEA, OJP, COPS, and JMD. We
used our understanding of these controls to determine proper audit
procedures.

      Although the audit was not performed for the purpose of
providing assurance on the internal control structure of each
component, this audit notes certain matters we consider to be
reportable conditions under the Government Auditing Standards.
Reportable conditions involve matters that came to our attention
during our review that relate to component conference sponsors
incurring and reporting conference expenditures and components
reviewing employee travel vouchers. In our judgment, reported issues
could adversely affect the ability of DOJ conference sponsors and
employees to use appropriated funds efficiently and effectively.

       Because we are not expressing an opinion on DOJ or DOJ
component internal controls over conference expenditures as a whole,
this statement is intended solely for the information and use of DOJ
and its components in planning and paying for conferences and paying
for employees to attend conferences. This restriction is not intended
to limit the distribution of this report which is a matter of public
record.




                                 80
                                                                   APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of the audit were to review: (1) the justifications
offered for the event; (2) the site-cost comparisons on where to hold
the event; and (3) certain conference-related costs – including food
and beverages, external event planning, and audio-visual – for
compliance with applicable laws and regulations, related to the nine
highest dollar conferences held within the United States, and the most
expensive DOJ conference held in a foreign location. 62

Scope and Methodology

      Our audit was limited to a review of 10 conferences held
between October 2004 and September 2006. We performed the audit
in accordance with the Government Auditing Standards, and included
tests and procedures we believed necessary to accomplish the audit
objectives. As detailed in Chapter 2, JMD prepared the listing of more
than 3,000 conferences in response to congressional inquiries. Using
the JMD list, we selected 10 conferences – nine conferences held in the
United States and one conference held overseas – that reported the
highest cost.

       We conducted our internal audit fieldwork at DOJ, FBI, OJP, and
COPS offices in Washington D.C., and Quantico, Virginia. We also
contacted, visited, and performed work at private-sector and non-
profit organizations that were provided DOJ funds to plan and
administer the Department-sponsored conferences. In addition, we
identified and reviewed federal acquisition and travel regulations, GAO
decisions, DOJ directives, and component-level guidance regarding
conference planning, travel, and allowable expenditures. We also
reviewed and analyzed conference planning documents and
summaries, conference attendance lists, memoranda of understanding,
invoices, and relevant congressional testimony.




      62
         As described in Chapter 2, we used conference expenditure lists compiled
by JMD to identify the 10 highest-dollar conferences to review for the audit.


                                       81
Planning and Hosting Costs

      As discussed in Chapter 2, we selected conferences with
expenses in the three largest overall categories to review and identify
unallowable and extravagant costs. We reviewed and verified
expenditures for conference planning and hosting costs from event
planner and supplier invoices and assigned each expense to one of
eight categories for comparative purposes. To select the one cost
category to review for each event, we ranked each conference
according to the amount spent in each category as shown in Table I-1.

Table I-1
    RANK OF SELECTED COST CATEGORIES BY CONFERENCE

                             External
                              Event                Food and

                                            Rank




                                                               Rank




                                                                                   Rank
                             Planning              Beverages           Audio-
   Conference Name              ($)                   ($)             Visual ($)
 OJJDP National Conference       605,619 1          291,940 2          62,930      6
 Weed and Seed Conference        197,565 5          394,008 1         147,779      2
 PSN National Conference         196,798 6          108,866 6         143,469      3
 OVC National Symposium          310,394 3           98,350 7         148,738      1
 LEC Conference                  145,767 7          181,002 4         122,577      4
 NIJ Technology Conference       409,535 2          175,101 5          38,976      7
 FBI Polygraph Conference             n/a 8           7,468 9           1,496      9
 COPS National Conference        213,174 4          274,546 3          89,185      5
 FBI ITEC Conference                  n/a 8           8,334 8           7,747      8
 FBI Cambodia Conference              n/a 8           4,219 10              0      10
                   TOTALS $2,078,852             1,543,834           762,897
Source: OIG analysis of component and external event planning records

      Our rankings found that the OJJDP National Conference spent
the most on external event planners with $605,619 in allocated costs.
The Weed and Seed Conference, with $394,008, spent more on food
and beverages than any other selected conference. Likewise, the OVC
National Symposium incurred $148,738 in audio-visual expenses, the
highest of any event.

      To determine the cost category reviewed for three of the
remaining seven unselected conferences, we selected the highest
ranked unselected conference in each cost category. We chose the NIJ
Technology Conference’s $409,535 external event planning charges,
the COPS National Conference’s $274,546 food and beverage expense,
and the PSN Conference’s $143,469 audio-visual equipment and
services cost.


                                       82
       To provide a contrast to the two high-dollar figures selected for
each of the three categories, we judgmentally chose the cost category
to review for the remaining four conferences. Since the FBI Cambodia
Conference did not report any external event planning or audio-visual
charges, we chose to review this event’s food and beverage costs.
Likewise, we chose external event planning costs for the LEC
Conference since this was the only remaining event reporting such
expenses. For the remaining two FBI events, we selected which
conference to review audio-visual and food and beverage costs to
maximize the dollar amount reviewed. This meant that we chose food
and beverage costs for the FBI Polygraph Conference and audio-visual
costs for the FBI ITEC Conference. Table I-2 presents the results of
this selection by cost category.

             Table I-2
                   COST CATEGORY SELECTION

                                             Amount
                                            Reviewed
                    Conference Name            ($)
                       External Event Planning
              OJJDP National Conference        605,619
              NIJ Technology Conference        409,535
              LEC Conference                   145,767
                         Food and Beverages
              Weed and Seed Conference         394,008
              COPS National Conference         274,546
              FBI Polygraph Conference           7,468
              FBI Cambodia Conference            4,219
                             Audio-Visual
              OVC National Symposium           148,738
              PSN National Conference          143,469
              FBI ITEC Conference                7,747
                TOTAL AMOUNT SELECTED $2,141,116
              Source: OIG analysis of component and external event
                      planning records

     Chapters 5, 6, and 7 detail the results of our review of the
above-selected costs totaling $2.1 million.




                                    83
Multi-Component Costs

      Other DOJ components, including sponsoring components,
incurred almost $1.9 million in costs resulting from sending employees
to attend the 10 reviewed conferences. To review the travel expenses
incurred by various DOJ components that sent employees to the
reviewed events, we obtained and counted the number of DOJ
attendees appearing on each event’s registration or attendance list.
These listings served as our basis for determining our sample of
employee travel vouchers to test.

      As shown in Table I-3, we found that 1,841 DOJ employees
registered to attend the 10 conferences. 63

Table I-3
     DOJ EMPLOYEES REGISTERED TO ATTEND REVIEWED
                     CONFERENCES

                                                                      Number of
                                                                        DOJ
     Name of Conference                 Location and Date             Employees
                                 Atlanta, Georgia
        OVC Symposium                                                         302
                                 March 7 - 11, 2005
                                 Minneapolis, Minnesota
   FBI Polygraph Conference                                                     98
                                 June 26 - July 1, 2005
                                 Los Angeles, California
   Weed and Seed Conference                                                   127
                                 August 22 - 25, 2005
                                 San Diego, California
   NIJ Technology Conference                                                    23
                                 October 31 - November 2, 2005
                                 Washington, D.C.
   OJJDP National Conference                                                    31
                                 January 9 - 13, 2006
                                 Phnom Penh, Cambodia
   FBI Cambodia Conference                                                      41
                                 March 12 - 17, 2006
                                 Denver, Colorado
    PSN National Conference                                                   641
                                 May 2 - 6, 2006
                                 Washington, D.C.
   COPS National Conference                                                   140
                                 July 27 - 29, 2006
                                 San Antonio, Texas
      FBI ITEC Conference                                                     293
                                 August 7 - 11, 2006
                                 Phoenix, Arizona
         LEC Conference                                                       145
                                 August 14 - 17, 2006
                          TOTAL NUMBER OF DOJ EMPLOYEES                     1,841
 Sources: OIG analysis of conference registration lists, component financial data,
           and voucher records


      63
           Some conference planners or sponsors did not have finalized attendance
rosters showing who actually attended the event. Consequently, we used each
conference’s most recently available registration list to identify DOJ employees.

                                        84
      A total of 12 different DOJ components sent employees to the
10 reviewed conferences.

           •   Bureau of Alcohol, Tobacco, Firearms and Explosives
               (ATF),
           •   Executive Office for United States Attorneys (EOUSA),
           •   Federal Bureau of Prisons (BOP),
           •   Community Resource Service (CRS),
           •   U.S. Marshals Service (USMS),
           •   U.S. Parole Commission (USPC),
           •   DEA,
           •   Criminal Division,
           •   FBI,
           •   OJP,
           •   COPS, and
           •   DOJ administrative offices.

      We randomly selected travel vouchers to sample and test for
compliance with pertinent travel rules and regulations. Since each
component is responsible for authorizing and approving individual
employee travel vouchers, we based the number of vouchers to
sample on vouchers generated by employees of each component who
actually traveled to attend a conference. We determined which
employees generated travel vouchers to attend the 10 conferences
and selected a number of travel vouchers we believed necessary to
provide a reasonable assurance that the components and their
employees complied with travel rules and regulations. 64

       As shown in Table I-4, we selected a sample of 253 travel
vouchers generated by DOJ employees from the 12 components and
offices to test the 10 reviewed conferences’ multi-component costs.




      64
          For each component, we selected: (1) 10 percent of the number of
vouchers for each conference if 100 or more employees attended; (2) 10 vouchers, if
less than 100 attended; or (3) all vouchers if less than 10 employees attended.

                                        85
  Table I-4
                 DOJ EMPLOYEES REGISTERED OR
               ATTENDINGREVIEWED CONFERENCES

                           Number                                Number
                              of                                    of
                           Vouchers                              Vouchers
        Component           Tested               Component        Tested
    COPS                           6          EOUSA                    58
    BOP                            2          OJP                      35
    FBI                          60           DEA                      17
    USPC                           4          CRS                        2
    ATF                          29           USMS                     15
    Criminal Division            11           DOJ Headquarters         14
   Source: OIG selection of travel vouchers

      Chapter 6 details the results of our review of multi-component
travel voucher costs.




                                       86
                                                                  APPENDIX II

         SCHEDULE OF DOLLAR-RELATED FINDINGS

                                          Funds To Be Put To A             Page
      Dollar-Related Finding                Better Use ($)*               Number

Deobligate remaining funds
from award number
2005-MX-KX-K001.                                  $225,117                      30


TOTAL FUNDS
TO BE PUT TO A BETTER USE:                        $225,117




  *    Funds to be put to a better use are monies that could be used more
       efficiently if management took actions to implement and complete audit
       recommendations.




                                        87
                                                             APPENDIX III

            CONFERENCE FACTS AND SUMMARIES

      The following charts contain facts and summaries for the 10
conferences selected for our audit.


1. OJJDP National Conference


Formal Name: The Coordinating Council on Juvenile Justice and
Delinquency Prevention’s National Conference: “Building on Success:
Providing Today’s Youth With Opportunities for a Better Tomorrow”

                            DOJ Sponsor:     OJP/OJJDP
                              Dates Held:    January 9 to 13, 2006
                                   Venue:    Washington Hilton Hotel
                                Location:    Washington, D.C.
                       No. of Registrants:   1,831
                   No. of DOJ Registrants:   31

Conference Summary: Held following the report issued by the White
House’s Task Force on Disadvantaged Youth, the conference was sponsored
by the Coordinating Council and OJJDP to bring together the programs,
practices, and strategies to promote the collaboration of federal, state, and
local juvenile justice and delinquency prevention collaboration programs.
Conference speakers included the Attorney General, who chairs the
Coordinating Council, and First Lady Laura Bush.




                                      88
2. Weed and Seed Conference


Formal Name: The 2005 Community Capacity Development Office National
Conference: “Strengthening Communities One Block at a Time”

                            DOJ Sponsor:     OJP/CCDO
                              Dates Held:    August 22 to 25, 2005
                                   Venue:    Westin Bonaventure Hotel
                                Location:    Los Angeles, CA
                       No. of Registrants:   1,542
                   No. of DOJ Registrants:   127

Conference Summary: As part of its mission to help communities develop
solutions to public safety problems and strengthen community leadership to
implement and sustain those solutions, the CCDO held the 2005 Weed and
Seed Conference. The conference included discussions of community
policing, neighborhood restoration, Weed and Seed program administration,
community engagement.



3. PSN National Conference


Formal Name: The 2006 Project Safe Neighborhoods National Conference

                            DOJ Sponsor:     OJP/BJA
                              Dates Held:    May 2 to 5, 2006
                                   Venue:    Denver Convention Center
                                Location:    Denver, CO
                       No. of Registrants:   1,330
                   No. of DOJ Registrants:   641

Conference Summary: The PSN National Conference offered training to
representatives from judicial districts and the PSN task forces to highlight
best practices from successful programs, collaboration techniques, and
effective methods for combating gun crime. According to BJA, participants
learned the latest and most promising practices in reducing gun crime from
national and local experts. Keynote speeches were given by the Attorney
General, Deputy Attorney General, while President Bush offered remarks via
videotape.




                                     89
4. OVC National Symposium


Formal Name: The Fourth National Symposium on Victims of Federal Crime

                            DOJ Sponsor:     OJP/OVC
                              Dates Held:    March 7 to 11, 2005
                                   Venue:    Atlanta Hilton Hotel & Towers
                                Location:    Atlanta, GA
                       No. of Registrants:   787
                   No. of DOJ Registrants:   302

Conference Summary: According to OVC, the Symposium brought
together representatives from federal, tribal, and military criminal programs
to improve federal crime victim assistance. Victim advocates, mental health
practitioners, law enforcement officers, criminal investigators, prosecutors,
correctional officers, members of the clergy, and physicians learned from
national experts about the impact of crime on individuals and the latest and
most promising practices being developed across the country.



5. CCDO LEC Conference


Formal Name: The 2006 CCDO Law Enforcement Conference: “The Spirit of
Service: Enforce, Empower, and Revitalize”

                            DOJ Sponsor:     OJP/CCDO
                              Dates Held:    August 14 to 17, 2006
                                   Venue:    Phoenix Convention Center
                                Location:    Phoenix, AZ
                       No. of Registrants:   1,329
                   No. of DOJ Registrants:   145

Conference Summary: The focus of the CCDO Law Enforcement
Conference was to present the latest technology trends in law enforcement to
assist communities with preventing and controlling crime. Participants from
local, state, and federal law enforcement organizations met with community
leaders and received information on crime abatement, community
development and strategic planning, neighborhood revitalization efforts, and
safety.




                                     90
6. NIJ Technology Conference


Formal Name: The Seventh Annual Technologies for Critical Incident
Preparedness Conference and Exposition

                           DOJ Sponsor:     OJP/NIJ
                             Dates Held:    October 31 to November 2, 2005
                                  Venue:    Marriott Hotel and Marina
                               Location:    San Diego, CA
                      No. of Registrants:   1,315
                  No. of DOJ Registrants:   23

Conference Summary: The NIJ Technology Conference is an annual event
held for law enforcement representatives and technology developers. This
conference focused on informing the first responder community of the federal
government’s technology efforts by sharing research initiatives. The
conference was also supported by the Department of Homeland Security and
the Department of Defense.




7. FBI Polygraph Conference


Formal Name: FBI Annual Polygraph Examiner’s Conference

                           DOJ Sponsor:     FBI
                             Dates Held:    June 26 to July 1, 2005
                                  Venue:    Marriott Center City Hotel
                               Location:    Minneapolis, MN
                      No. of Registrants:   98
                  No. of DOJ Registrants:   98

Conference Summary: Held each year, the FBI Polygraph Conference
addresses Department of Defense Polygraph Institute training requirements
for field division polygraph examiners. Specifically, the conference taught
polygraph examination and interrogation techniques that should be used in
counterterrorism and counterintelligence cases.




                                     91
8. COPS National Conference


Formal Name: 2006 National Community Policing Conference:
“Community Policing: Leading the Way to a Safer Nation”

                           DOJ Sponsor:     COPS
                             Dates Held:    July 27 to 29, 2006
                                  Venue:    Washington Hilton Hotel
                               Location:    Washington, D.C.
                      No. of Registrants:   1,437
                  No. of DOJ Registrants:   140

Conference Summary: According to COPS, attendees at the COPS
National Conference discussed and learned new strategies on cutting-edge
community policing approaches. The conference also featured interactive
forums and training sessions to network and build partnerships with leaders
from various public safety disciplines. Attendees included representatives
from federal, state, and local law enforcement organizations, school and
campus safety officials, community groups, and training academies.


9. FBI ITEC Conference


Formal Name: The 2006 FBI Information Technology Exchange Conference

                           DOJ Sponsor:     FBI
                             Dates Held:    August 7 to 10, 2006
                                  Venue:    Hyatt Regency Hotel
                               Location:    San Antonio, TX
                      No. of Registrants:   306
                  No. of DOJ Registrants:   293

Conference Summary: The FBI ITEC Conference presented network,
computer, and case software updates to FBI field division personnel who
work with information technology.




                                     92
10. FBI Cambodia Conference


Formal Name: The FBI Office of International Operations Asia Unit Regional
Training Conference

                           DOJ Sponsor:     FBI
                             Dates Held:    March 12 to 17, 2006
                                  Venue:    U.S. Embassy
                               Location:    Phnom Penh, Cambodia
                      No. of Registrants:   46
                  No. of DOJ Registrants:   41

Conference Summary: FBI legal attaches in the Office of International
Operation’s Asia Unit attended the training and networking conference to
discuss common regional problems and issues. According to the FBI, the
conference provided a focused learning environment that included presenters
from DOJ and federal intelligence organizations.




                                    93
                                                    APPENDIX IV

                        ACRONYMS

  AMD     OJP's Acquisitions Management Division
   ATF    Bureau of Alcohol, Tobacco, Firearms and Explosives
    BJA   Bureau of Justice Assistance
   BOP    Federal Bureau of Prisons
 CCDO     Community Capacity Development Office (OJP)
 C.F.R.   Code of Federal Regulations
 COPS     Office of Community Oriented Policing Services
   CRS    Community Resource Service
   DEA    Drug Enforcement Administration
  DHS     U.S. Department of Homeland Security
   DoD    U.S. Department of Defense
   DOJ    U.S. Department of Justice
  DVD     Digital Versatile Disc
EOUSA     Executive Office for United States Attorneys
    FBI   Federal Bureau of Investigation
   FTR    Federal Travel Regulation
     FY   Fiscal Year
  GAO     Government Accountability Office
   GSA    General Services Administration
  ITEC    Information Technology Exchange Conference
   JMD    Justice Management Division
   LEC    Law Enforcement Conference
  M&IE    Meals and Incidental Expenses
   NIH    National Institutes of Health
    NIJ   National Institute of Justice
   OIG    Office of the Inspector General
   OIO    FBI Office of International Operations
 OJJDP    Office of Juvenile Justice and Delinquency Prevention
    OJP   Office of Justice Programs
   OVC    Office for Victims of Crime
   P&H    Planning and Hosting
   PSN    Project Safe Neighborhood
   TDD    FBI's Training and Development Division
U.S.C.    United States Code
 USMS     United States Marshals Service
 USPC     United States Parole Commission
   VHS    Video Home System




                              94
                                 APPENDIX V


CONSOLIDATED DOJ RESPONSE TO AUDIT REPORT
           RECOMMENDATIONS




                   95
96
97
98
                                                        APPENDIX VI

          OIG SUMMARY AND ANALYSIS OF ACTIONS
               NECESSARY TO CLOSE REPORT

      The OIG provided a draft audit report to the components
involved in this audit. Since our report recommendations involve
matters of policy over which JMD has oversight responsibilities, the
OIG agreed with DOJ officials that JMD should work with the other
components and prepare a consolidated DOJ response.

      We attached JMD’s consolidated response in this report at
Appendix V. Since JMD and the applicable components agreed and
proposed actions consistent with all of our report’s recommendations,
we consider 12 recommendations resolved and 2 recommendations
closed. The following is a summary of actions necessary to close each
recommendation.

1.    Resolved. This recommendation is resolved based on JMD’s
      proposal to issue guidance, by March 31, 2008, to all DOJ
      components for calculating and reporting conference costs. This
      recommendation can be closed when we review and evaluate the
      implemented guidance.

2.    Closed. This recommendation is closed based on evidence we
      received showing DEA’s tracking of individual conference
      expenditure data. The DEA provided sufficient evidence that it
      has implemented a procedure to permit assessing individual
      conference expenses.

3.    Resolved. This recommendation is resolved based on JMD’s
      agreement to implement, by March 31, 2008, specific guidance
      to all DOJ components on what comparisons of costs between
      different sites conference planners should perform to ensure the
      best location for the best value. This recommendation can be
      closed when we review and evaluate the implemented guidance.




                                  99
4.   Resolved. This recommendation is resolved based on OJP’s
     proposal to implement guidance, by March 31, 2008, to
     conference planners on developing and retaining documents that
     evidence complete site cost comparisons. This recommendation
     can be closed when we review and evaluate the implemented
     guidance.

5.   Resolved. This recommendation is resolved based on OJP’s
     proposal to work with program offices to deobligate the
     $225,117 remaining balance of cooperative agreement number
     2005-MX-KX-K001, by September 30, 2007. This
     recommendation can be closed when we receive evidence that
     $225,117 has been deobligated.

6.   Resolved. This recommendation is resolved based on OJP’s
     proposal to evaluate, by March 31, 2008, methods to solicit,
     hire, and assess external event planners to ensure that
     conference planning costs comply with FTR and DOJ conference
     planning guidelines. This recommendation can be closed when
     we review and evaluate evidence that OJP implemented
     procedures for soliciting, hiring, and assessing external event
     planners that will ensure that conference planning costs comply
     with FTR and DOJ conference planning guidelines.

7.   Resolved. This recommendation is resolved based on JMD’s
     agreement to develop and implement, by March 31, 2008,
     general food and beverage policies that DOJ conference planners
     must use when planning events. This recommendation can be
     closed when we review and evaluate JMD’s general food and
     beverage policies.

8.   Resolved. This recommendation is resolved based on JMD’s
     agreement to instruct DOJ component Chief Financial Officers, by
     September 30, 2007, to develop and implement procedures that
     ensure employees deduct the appropriate amount from the M&IE
     rate for government-provided meals. This recommendation can
     be closed when we review and evaluate evidence that
     component Chief Financial Officers developed and implemented
     procedures that ensure employees are deducting from their
     travel vouchers the appropriate amount from the M&IE rate for
     government-provided meals.




                                100
9.    Resolved. This recommendation is resolved based on JMD’s
      agreement to develop and implement, by March 31, 2008, a
      specific policy requiring components sponsoring conferences with
      costly food and beverages to develop a mechanism that
      adequately documents the reason for and approval of these food
      and beverage costs. This recommendation can be closed when
      we review and evaluate JMD’s implemented policy and
      procedures for adequately documenting the reason for and
      approval of costly food and beverages.

10.   Resolved. This recommendation is resolved based on OJP’s
      agreement to develop and implement policies and procedures,
      by March 31, 2008, to ensure compliance with existing policies
      governing the reasonableness of conference food and beverage
      costs. This recommendation can be closed when we review and
      evaluate OJP’s implemented procedures for ensuring the
      reasonableness of conference food and beverage costs.

11.   Resolved. This recommendation is resolved based on the COPS
      Office’s agreement to develop procedures that ensure
      compliance with existing policies governing the reasonableness
      of conference food and beverage costs. This recommendation
      can be closed when we review and evaluate the COPS Office’s
      implemented procedures for ensuring the reasonableness of
      conference food and beverage costs.

12.   Resolved. This recommendation is resolved based on the COPS
      Office’s agreement to develop and implement policies to
      reprogram unused award funds in ways that mitigate
      unnecessary indirect costs. This recommendation can be closed
      when we review and evaluate the COPS Office’s policies for
      reprogramming unused award funds in ways that will mitigate
      unnecessary indirect costs.

13.   Closed. The COPS Office provided an accounting of food and
      beverage indirect costs that included a breakdown of indirect
      cost totals among consortium organizations. This
      recommendation is considered closed based on the accounting
      provided by the COPS Office.




                                 101
14.   Resolved. This recommendation is resolved based on OJP’s
      agreement to develop and implement policies and procedures,
      by March 31, 2008, to ensure compliance with the miscellaneous
      receipts statute. This recommendation can be closed when we
      review and evaluate OJP’s policies and procedures for ensuring
      compliance with the miscellaneous receipts statute.




                                102
